<html>
<title> - NOMINATION OF HON. JANET A. NAPOLITANO</title>
<body><pre>[Senate Hearing 111-602]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-602
 
                 NOMINATION OF HON. JANET A. NAPOLITANO

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

NOMINATION OF HON. JANET A. NAPOLITANO TO BE SECRETARY, U.S. DEPARTMENT 
                          OF HOMELAND SECURITY

                            JANUARY 15, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
49-487                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                    Beth M. Grossman, Senior Counsel
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director of Homeland Security Affairs
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator McCain...............................................     5
    Senator Collins..............................................     7
    Senator Voinovich............................................    17
    Senator McCaskill............................................    19
    Senator Akaka................................................    22
    Senator Tester...............................................    25
    Senator Landrieu.............................................    27
    Senator Levin................................................    30
    Senator Carper...............................................    36

                               WITNESSES
                       Thursday, January 15, 2009

Hon. Jon Kyl, a U.S. Senator from the State of Arizona...........     6
Hon. Janet A. Napolitano to be Secretary, U.S. Department of 
  Homeland Security..............................................    10

                     Alphabetical List of Witnesses

Kyl, Hon. Jon:
    Testimony....................................................     6
Napolitano, Hon. Janet A.:
    Testimony....................................................    10
    Prepared statement...........................................    45
    Biographical and financial information.......................    50
    Responses to pre-hearing questions...........................    72
    Letter from the Office of Government Ethics with an 
      attachment.................................................   168
    Responses to post-hearing questions for the Record...........   170

                                APPENDIX

Letter to Hon. Michael Chertoff from Hon. Janet A. Napolitano, 
  November 5, 2007...............................................   213
Letter to Hon. Michael Mukasey from Hon. Janet A. Napolitano, 
  October 1, 2008................................................   215
Letters of support for Hon. Janet A. Napolitano..................   217


                 NOMINATION OF HON. JANET A. NAPOLITANO

                              ----------                              


                       THURSDAY, JANUARY 15, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Carper, 
Landrieu, McCaskill, Tester, Collins, McCain, and Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning. Welcome to this hearing, which is called to consider 
President-elect Obama's nomination of Arizona Governor Janet 
Napolitano to become the Nation's third Secretary of Homeland 
Security.
    Governor, I welcome you today. I want to say that the fact 
that you have asked not just Senator Kyl but Senator McCain to 
introduce you today is just another sign of your personal 
confidence and courage. [Laughter.]
    It is a great pleasure to welcome our dear friends John 
McCain and Jon Kyl. It obviously speaks well of what Arizona 
thinks about you as you assume this new responsibility.
    I personally believe that Governor Napolitano is a superb 
choice to lead our Nation's domestic security agency and help 
in its ongoing transition from a start-up operation to a mature 
agency whose component parts work together so well that the 
whole is much greater than the sum of those parts. This 
nomination has received support from an assortment of different 
groups and individuals whose names I will put into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The letters of support for Governor Napolitano appear in the 
Appendix on page 217.
---------------------------------------------------------------------------
    Let me just say a few words by way of setting the scene.
    The Department of Homeland Security (DHS) was created 6 
years ago, its origins coming out of this Committee, which was 
then the Governmental Affairs Committee. It was created, 
obviously, in direct response to the Islamist terrorist attacks 
against the United States on September 11, 2001.
    Former Homeland Security Secretaries, Tom Ridge and Michael 
Chertoff, have done great work, I think, in leading the 
Department through the growing pains of its early years and 
making progress in turning this initial amalgam of 22 agencies 
and now more than 200,000 employees--all with different 
cultures and missions--into a single Department with a singular 
mission, which is to protect the safety of the American people.
    Now, Governor, as the Department goes through its first 
Presidential transition, we have confidence that you will build 
on the work of your predecessors.
    To help advance this transition, Senator Collins and I 
intend to bring before this Committee a comprehensive 
authorization bill for the Department of Homeland Security that 
outlines key areas of improvement we think can make the 
Department more efficient and effective in its various 
missions, and we will also recommend levels of funding for the 
Department in that authorization bill. We hope that this can 
become an annual exercise in which we will work with you to 
both become advocates and authorizers for a sufficient level of 
funding for this critical Department, but also to use the 
authorization bill as a way to improve the authority and 
functioning of the Department.
    I do want to say parenthetically in that regard that an 
important milestone in the history of the Department of 
Homeland Security was reached just a few days ago when the 
National Capital Planning Commission gave its final approval 
for a new Department of Homeland Security headquarters on the 
St. Elizabeths campus, which means that this Department, which 
is meant to function as a unity but has been spread throughout 
the capital area, now will have a house in which you can work 
together.
    Six years into the Department's mission, and in spite of 
the significant improvements in its performance in protecting 
the safety and security of the American people, there are still 
those who believe that the Department should be chopped up and 
its parts shipped off to other agencies. And there is always a 
prospect, as we go through the first presidential transition of 
the Department, that those who have those aims will attempt to 
act on them now.
    I believe that is exactly the wrong way to go. It makes no 
sense. It would take us back to where we were, after all, on 
September 11, 2001, when the terrorists exploited our national 
vulnerability, caused by the balkanization of our many homeland 
security agencies, to attack and kill 3,000 people.
    Some, as you know, have proposed removing the Federal 
Emergency Management Agency (FEMA) from the Department and 
making it a free-standing agency. I will do all I can--and I 
know Senator Collins and I will be working once again side by 
side on that--to stop such disintegration because we feel so 
strongly that FEMA benefits. Not only has it been improved 
dramatically post-Katrina, but it benefits from the cooperative 
atmosphere and environment in which it works with the other 
relevant disaster response and preparedness agencies in the 
Department of Homeland Security.
    I am going to include the rest of my statement in the 
record. I want to simply say for the record--and I will be 
asking questions about this--we have some priorities and 
unfinished business that we have discussed with you, and we 
want to work together with you on those priorities. One is, 
though we have dramatically improved the security of aviation 
transportation post-September 11, 2001, we have not done as 
well in non-aviation transportation--rail and transit. That is 
unfinished business which we want to work on together.
    Our preparedness to both deter and, God forbid, respond to 
an attack with weapons of mass destruction (WMD), particularly 
biological weapons--we have raised our guard, but we are not 
where we need to be. We want to work with you on that. The same 
is true of chemical security where the existing legislation 
needs to be reauthorized in the year ahead.
    And, of course, as the Secretary of Homeland Security, you 
preside over the immigration and border security agencies of 
our government, and there is obviously a lot that we need to do 
together to improve the functioning of those agencies and the 
enforcement of law.
    Bottom line, we welcome you. We look forward to a good 
exchange of ideas here today. We are going to work very hard to 
get this nomination of yours to a point where it can be 
confirmed by the Senate as soon after the President-elect is 
inaugurated next Tuesday as possible. I think we all on this 
Committee, and I hope people generally, feel that getting you 
into the office of Secretary of Homeland Security today is as 
important as seating the Secretary of Defense to the security 
of our country.
    I thank you very much for your willingness to take on this 
assignment.
    I will now call on the Ranking Member, Senator Susan 
Collins.
                PREPARED STATEMENT OF SENATOR LIEBERMAN
    Good morning and welcome to this hearing to consider the nomination 
of Arizona Governor Janet Napolitano to become the Nation's third 
Secretary of Homeland Security.
    Welcome Governor. And I also want to welcome my good friends and 
colleagues--and your home State Senators, John McCain and Jon Kyl--who 
are here this morning to speak on your behalf.
    I believe Governor Napolitano is a superb choice to lead our 
Nation's domestic security agency and help in its ongoing transition 
from a start-up operation to a mature agency whose component parts work 
together so well that the whole is greater than the sum of its parts.
    Governor Napolitano brings the management experience that comes 
from being the chief executive of a fast-growing State.
    She knows how to work with officials and first responders at all 
levels of government--a crucial qualification for this job where 
success is impossible without cooperation across the Nation at the 
Federal, State and local levels.
    Governor Napolitano also comes from a border State--Arizona sharing 
a border of more than 370 miles with Mexico. That has given the 
governor front-line experience on some of the challenges facing her 
department, like illegal immigration and border security.
    As a former Attorney General of Arizona as well as a former U.S. 
Attorney, Governor Napolitano also brings hands-on law enforcement 
experience to the job.
    I believe these skills will serve the Governor well in her 
demanding new job--as do the International Association of Fire 
Fighters, the International Association of Fire Chiefs, the 
International Association of Chiefs of Police, the Major City Chiefs, 
the National Emergency Management Association, the International 
Association of Emergency Managers, and 31 State Attorneys General.
    I commend President-elect Obama for his excellent choice.
    I also have a letter from House Homeland Security Committee 
Chairman Benny Thompson, endorsing your nomination, and I will make 
that part of the record.
    The Department of Homeland Security was created 6 years ago in 
response to the attacks of September 11, 2001.
    Former Homeland Security Secretaries, Tom Ridge and Michael 
Chertoff, did great work in leading the department through the growing 
pains of its early years and made progress in turning this initial 
amalgam of 22 agencies and 200,000 employees--all with different 
cultures and missions--into a single department with a singular mission 
to protect the safety of the American people.
    Now, Governor, as the department goes through its first 
presidential transition, we have confidence you will build on the work 
of your predecessors.
    To advance this transition, this Committee intends to introduce a 
comprehensive authorization bill for the Department of Homeland 
Security that outlines key areas of improvement we think can make DHS 
more efficient and effective in its various missions, and recommend 
levels of funding for the Department.
    Senator Collins and I first introduced a DHS authorization bill in 
the final days of the 110th Congress and will make it a priority of 
this committee in the 111th Congress. We look forward to working 
closely with you as we move to get a bill in front of the full Senate 
this year.
    An important milestone in DHS history was reached recently when the 
National Capital Planning Commission gave its final approval for a new 
DHS Headquarters on the St. Elizabeths campus.
    Nonetheless, 6 years into the Department's mission, and in spite of 
its significant improvements in its performance, there are still those 
who believe DHS should be chopped up and its parts shipped off to other 
agencies.
    I believe that is exactly the wrong way to go. It makes no sense. 
It would take us back to where we were on September 11, 2001, when the 
terrorists exploited the vulnerability caused by the separation and 
balkanization of our many homeland security agencies to attack and kill 
3,000 people.
    Some have proposed removing FEMA from DHS and making it a free-
standing agency. I will do all I can to stop such disintegration.
    When Congress passed the Post-Katrina Emergency Management Reform 
Act in 2006, we built a new, stronger FEMA, giving it a renewed mission 
and greater stature and resources.
    Moving it out now would weaken FEMA, since the agency would no 
longer have the same ready access to the resources and expertise of the 
rest of DHS--and it would make it more, not less, difficult to 
coordinate in a disaster.
    In the new session of Congress, this Committee will also act on the 
recommendations of the Commission on the Prevention of WMD 
Proliferation and Terrorism.
    That report, released in December, opened with this chilling 
warning: ``Unless the world community acts decisively and with great 
urgency, it is more likely than not that a weapon of mass destruction 
will be used in a terrorist attack somewhere in the world by the end of 
2013.''
    The commission found that it would be far easier for terrorists to 
get their hands on biological weapons than nuclear weapons and easier 
also to use them to attack us.
    Much legitimate biological research takes place in very poorly 
secured or totally unsecured facilities and, while this work can lead 
to medical and scientific breakthroughs, the same knowledge and 
expertise can also be used to build weapons of mass bio-terror that 
literally threaten millions of lives.
    We need to craft a strong homeland and global response to protect 
us from this growing danger.
    Governor Napolitano, as Secretary of Homeland Security, you will 
have a key role to play in working with other agencies--the Departments 
of Health and Human Services (HHS), Defense (DOD), Justice (DOJ), 
Treasury, and Agriculture (USDA), and others who still have significant 
responsibilities for key aspects of homeland security.
    In the Homeland Security Act, Congress established the Homeland 
Security Council to facilitate that critical coordination. Today, there 
is legitimate concern about how well that process is working, 
especially regarding the respective roles of the Homeland Security 
Council (HSC) and the National Security Council (NSC).
    Yours will be an important voice in determining how improvements 
are to be made, and I look forward to working with you and other 
members of the President's national security team to make sure that 
homeland security receives the attention it needs amidst several 
challenges to our Nation's overall security.
    I fully support your nomination and look forward to working with 
you in the years ahead.
    Senator Collins.

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, I know that Senator McCain and Senator Kyl 
have very busy schedules, so I would be willing to allow them 
to do their introductory statements prior to my giving my 
opening statement, if that would be helpful to them. I still 
want to give my statement, of course. [Laughter.]
    But having them proceed I am sure would help them.
    Chairman Lieberman. That is very gracious of you. Do our 
colleagues accept the offer? Senator McCain, welcome.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman, and thank you, 
Senator Collins, for your usual gracious consideration. I 
welcome the opportunity, and with great pleasure, to introduce 
along with my friend and colleague, Senator Kyl, Governor Janet 
Napolitano, to the Committee.
    Janet Napolitano has served Arizona as a U.S. Attorney, 
Attorney General, and currently as the State's 21st Governor. 
In 2005, she was voted one of America's top five governors by 
Time Magazine, which stated, ``Positioning herself as a no-
nonsense, pro-business centrist, she has worked outside party 
lines since coming to office.''
    I agree wholeheartedly with Time's assessment, and I am 
confident she will use this same no-nonsense attitude toward 
running our Nation's third largest Department that employs over 
200,000 men and women who work each day to protect our 
homeland.
    Not only does Janet Napolitano possess a no-nonsense 
attitude, she also possesses remarkable stamina and unlimited 
energy. She has hiked the Himalayas, climbed Mount Kilimanjaro, 
and battled cancer. She will need this same energy to lead a 
Department that was created 5 years ago through the merger of 
22 agencies. After some time on the job, she may find climbing 
Mount Kilimanjaro far easier than navigating the halls of the 
Department.
    One of the major challenges facing the Department and our 
country is the issue of illegal immigration. If the new 
Administration chooses to tackle this difficult issue, I stand 
ready to assist in their efforts by working closely with this 
outstanding nominee. I know that Governor Napolitano would 
provide this Administration and Congress with a unique 
perspective as it attempts to tackle comprehensive immigration 
reform.
    Governor Napolitano explained her experience far more 
eloquently than I could when she testified before the House 
last April. She said, ``Unlike many in Washington, I have 
actually walked, flown by helicopter, and even ridden a horse 
over much of the border's rough, rugged desert and mountainous 
terrain.''
    She went on to say, ``I have toured the drug tunnels where 
cocaine and marijuana enter our country by the ton. I have seen 
the sewers where children who are crossing the border alone 
sleep at night. And I have seen the campsites strewn with 
abandoned clothing, human waste, and refuse.''
    As the U.S. Attorney for the District of Arizona, she went 
on to say, ``I have supervised the prosecution of more than 
6,000 immigration felonies and broken up drug-trafficking, 
human-smuggling, and money-laundering rings. As governor, I 
have sought to continue to provide for the vital health care, 
education, and infrastructural needs of the Nation's fastest 
growing State, all while shouldering the disproportionate 
burden of the Federal Government's inability to control the 
borders and provide a meaningful plan for immigration reform.''
    Clearly, Arizona's loss is the Nation's gain. We are very 
fortunate to have such a dedicated, capable person in public 
service. I thank you, Governor Napolitano.
    I commend the President-elect for selecting such an 
outstanding and capable individual to fill this important 
leadership position and look forward to working with Governor 
Napolitano in her new role.
    Chairman Lieberman. Thanks, Senator McCain, for that very 
strong statement on behalf of the nominee.
    Senator Kyl, welcome. Good to see you.

  TESTIMONY OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, Members of the 
Committee. I, too, am pleased to join my colleague Senator 
McCain in introducing Arizona's Governor, Janet Napolitano, to 
be the next Secretary of the Homeland Security Department. She 
will bring a wealth of experience to the Department, 
particularly having served as governor of a border State which 
is dealing, as Senator McCain said, with the critical problem 
of illegal immigration.
    Governor Napolitano's distinguished career well prepares 
her for this unique position. Elected as governor of Arizona in 
2002 and re-elected in 2006, she has important executive 
experience. She is Arizona's third female governor, the first 
woman to be re-elected to the post, and the first in the 
country to succeed another elected female governor. She became 
the first Arizonan to chair the National Governors Association 
(NGA) after having served as Chair of the Western Governors 
Association.
    Prior to her service as governor, she was appointed by 
President William Clinton to serve as the U.S. Attorney for the 
District of Arizona. In that capacity, she supervised the 
prosecution of more than 6,000 immigration cases, of course 
among many others. She subsequently served as Attorney General 
of the State of Arizona from 1998 until her election as 
governor in 2002.
    And as Senator McCain emphasized, Governor Napolitano will 
bring an important perspective to the Department as she 
understands what communities along the border must deal with 
every day as a result of the continuing flow of illegal 
immigrants across our borders. It is a local perspective that 
too often has not been well represented in Federal agencies in 
Washington. In fact, in 2005, she spoke to her fellow Arizonans 
and said this: ``While we here in Arizona will do our jobs, we 
need to insist that the people in Washington do theirs. The 
Federal Government has a long and nearly unbroken record of 
misunderstanding our region and our State. When it comes to 
homeland security, we read a lot of bold talk in the 
newspapers. But when it comes to resources, Federal policy is 
nothing less than timid.''
    Well, Governor Napolitano will come to Washington having 
worked with Federal officials to bolster border and immigration 
enforcement resources, and her new position will present a 
great opportunity to continue to respond to the clear call from 
the American people to secure the border and enforce our laws.
    I congratulate Governor Napolitano on her nomination and 
look forward to working with her as she assumes the important 
duties as Secretary of the Department of Homeland Security.
    Chairman Lieberman. Thank you very much, Senator Kyl.
    Governor Napolitano, your State and its Senators are 
clearly strongly behind you.
    We appreciate that both of you are here, and obviously 
understand that you have to go on to other work now. Have a 
good day. Thank you.
    Now, Senator Collins and I both agreed in response to the 
statement that Arizona was a very progressive State since it 
has already had three women governors, and with that, I will 
call on my Ranking Member, Senator Collins of Maine.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    I join our Chairman in welcoming Governor Napolitano to our 
Committee. Two great national traumas--the terrorist attacks of 
September 11, 2001, and Hurricane Katrina--tragically 
demonstrated the loss and suffering that occur when our 
Nation's guard is down and we are unprepared.
    As the Department of Homeland Security nears its sixth 
anniversary, those of us who advocated for its creation can 
salute its accomplishments while still recognizing that it 
remains very much a work in progress. The men and women at DHS 
have helped to deter and protect our Nation from terrorist 
attacks. Our Nation's ability to prepare for and respond to 
disasters has also improved dramatically with the reforms that 
this Committee made to FEMA. Nevertheless, constantly evolving 
terrorist threats and the forces of nature require further 
improvements at the Department. And its vital mission demands a 
strong, skilled leader at its helm.
    I recently met with the governor to discuss a wide range of 
issues, including security at our borders and seaports, 
cooperation with State and local law enforcement, and the 
myriad tests that DHS will confront in the coming years. I was 
impressed with the governor's background and knowledge of 
homeland security issues.
    Her experience as a border State governor, in particular, 
is most welcome to those of us who represent border States with 
extensive cross-border travel and trade. Residents of our 
border communities work, shop, worship, and visit family on 
both sides of the border, complicating the challenge of border 
security. Governor Napolitano understands that we have to let 
our friends in, while keeping our enemies out, enforcing border 
regulations in a practical manner as we seek to protect the 
American people.
    Among the significant emerging challenges that the new 
Secretary will face is the need to enhance security at our 
Nation's biological laboratories. The Commission on Weapons of 
Mass Destruction has predicted a terrorist attack using a 
biological weapon within the next 5 years. The Commission 
pointed to lax security at biological labs as one of the bases 
for that chilling assessment.
    Another threat that the Department must address is the 
security of our Nation's cyber infrastructure. Our Federal 
systems require an empowered coordinator that understands the 
cyber threat and who can establish and enforce best practices 
across the Executive Branch. We must also redouble our efforts 
to work with the private sector on cyber security.
    Another area where the next Secretary must forge a 
partnership with the private sector is the security of our 
Nation's critical infrastructure. With more than 85 percent of 
those assets in private hands, this is a daunting task. 
Seaports and chemical facilities are two categories of 
infrastructure that we have made more secure through 
legislation that this Committee authored. During the 111th 
Congress, I look forward to working with the next Secretary to 
authorize these programs while continuing to strengthen the 
framework embodied in the National Infrastructure Protection 
Plan.
    In the last 6 years, the Department has helped improve our 
all-hazards preparedness and response capabilities. Homeland 
security grant funding for our State and local first responders 
has certainly played a critical role in that effort. But, 
consistently, funding levels have been under attack by the 
Executive Branch, and DHS has not yet fully complied with the 
requirement to establish an all-hazards risk formula. Since 
every State is at risk for terrorist attacks--especially if 
terrorists see gaps in our defenses--it is critical that we 
maintain strong funding for these programs and continue to 
support a baseline of capabilities for each and every State.
    It is the Federal Emergency Management Agency that forms 
the core of the Department's ability to perform its 
preparedness, response, and recovery missions. After Hurricane 
Katrina, as the Chairman has indicated, this Committee launched 
an intensive bipartisan investigation and wrote the law that 
has resulted in vital reforms of FEMA. If you look at FEMA's 
handling of disasters since then, whether it is wildfires, 
tornadoes, or severe storms and floods, you see a new FEMA with 
improved capabilities, bolstered by increased coordination with 
State and local governments and military resources.
    FEMA's documented improvements and the logical combination 
of all-hazards prevention, preparedness, response, and recovery 
in a single Department underscore the need to keep FEMA within 
DHS. Detaching FEMA in the vain hope of recapturing some 
mythical FEMA of long past days would weaken its effectiveness, 
reduce the ability of DHS to carry out its all-hazards planning 
mandate, cause needless duplication of effort, and cause 
confusion among State and local first responders. And that is 
why I am confident that the governor, in reviewing this issue 
in more depth, will listen not only to the Chairman and to me, 
but to our Nation's firefighters and other first responders who 
have taken a very clear position on this important issue.
    As a relatively new department, DHS still suffers from some 
significant integration and management challenges. That is to 
be expected. With a Department that has over 200,000 employees 
and combined more than 22 agencies, there are going to be 
management challenges. But we have seen great progress in the 
last nearly 6 years. From the program management and resource 
allocations to the basic need for a consolidated headquarters, 
the next Secretary, however, will need to focus intently to 
remove the remaining obstacles to effective integration and 
improved performance.
    The challenges are many, but the new Secretary can look 
forward to a bipartisan sense of commitment and resolve from 
this Committee.
    Thank you, Mr. Chairman.
                 PREPARED STATEMENT OF SENATOR COLLINS
    I join our Chairman in welcoming Governor Napolitano to our 
Committee. Two great national traumas--the terrorist attacks of 
September 11, 2001, and Hurricane Katrina--tragically demonstrated the 
loss and suffering that occur when our Nation's guard is down and we 
are unprepared.
    As the Department of Homeland Security nears its sixth anniversary, 
those of us who advocated its creation can salute its accomplishments 
while still recognizing that it remains very much a work in progress. 
The men and women at DHS have helped deter and protect our nation from 
terrorist attacks. Our Nation's ability to prepare for and respond to 
all disasters has also improved dramatically with the reforms this 
Committee made to FEMA.
    Nonetheless, constantly evolving terrorist threats and the forces 
of nature require further improvements at the Department. And its vital 
mission demands a strong, skilled leader at the helm.
    I recently met with Governor Napolitano to discuss a wide range of 
issues, including security at our borders and seaports, cooperation 
with State and local law enforcement, and the myriad tests that DHS 
will confront in the coming years. I am impressed with the Governor's 
background and knowledge of homeland security issues.
    Her experience as a border State governor is particularly welcome 
to those of us who represent border States with extensive cross-border 
trade and travel. Residents of border communities work, shop, worship, 
and visit family on both sides of the border, complicating the 
challenge of border security. Governor Napolitano understands that we 
have to let our friends in, while keeping our enemies out, enforcing 
border regulations in a practical manner as we seek to protect the 
American people.
    Among the significant emerging challenges that the new Secretary 
will face is the need to enhance security at the Nation's biological 
laboratories. The Commission on Weapons of Mass Destruction has 
predicted a terrorist attack with a biological weapon within the next 5 
years. The Commission pointed to lax security at biological labs as one 
of the bases for that chilling assessment.
    Another threat that the Department must address is the security of 
our Nation's cyber infrastructure. Our Federal systems require an 
empowered coordinator that understands the cyber threat and can 
establish and enforce best practices across the Executive Branch. We 
must also redouble our efforts to work with the private sector on cyber 
security.
    The next Secretary must also continue to focus on the security of 
our Nation's critical infrastructure. With more than 85 percent of 
those assets in private hands, this is a daunting task. Seaports and 
chemical facilities are two categories of infrastructure that we have 
made more secure through legislation that I co-authored. During the 
111th Congress, I look forward to working with the next Secretary to 
reauthorize these programs while continuing to strengthen the framework 
embodied in the National Infrastructure Protection Plan.
    In the last 6 years, DHS has helped improve our all-hazards 
preparedness and response capabilities. Homeland security grant funding 
for our State and local first responders has certainly played a key 
role in that effort. Funding levels, however, have been under attack 
from the Executive Branch, and DHS has not yet fully complied with the 
requirement to establish an all-hazards risk formula. Since every State 
is at risk for terrorist attacks--especially if terrorists see gaps in 
our defenses--it is critical that we maintain strong funding for these 
programs and continue to support a baseline of capabilities in every 
State.
    It is the Federal Emergency Management Agency that forms the core 
of the Department's ability to perform its preparedness, response, and 
recovery missions. After Hurricane Katrina, this Committee wrote into 
law vital reforms of FEMA. Subsequent disasters like wildfires, 
tornadoes, and severe storms and floods have demonstrated FEMA's new 
and improved capabilities, bolstered by increased coordination with 
State and local governments and military resources.
    FEMA's documented improvements and the logical combination of all-
hazards prevention, preparedness, response, and recovery in a single 
department underscore the need to keep FEMA within DHS. Detaching FEMA 
in the vain hope of recapturing mythical halcyon days would weaken its 
effectiveness, reduce the ability of DHS to carry out its all-hazards 
planning mandate, cause needless duplication of effort, and foment 
confusion among State and local first responders during a disaster. As 
she explores this issue in more depth, it is my expectation that 
Governor Napolitano will eventually share this view, particularly given 
the strong views of our Nation's firefighters and other first 
responders.
    As a relatively new department, DHS still suffers from significant 
integration and management challenges. The effective operation of the 
Department's 22 legacy agencies requires a strong departmental culture, 
close collaboration between the Department's components, and effective 
cooperation with other Federal, State, local, tribal, and private-
sector partners. From the Department's program management and resource 
allocations, to the basic need for a consolidated headquarters, the 
next Secretary must focus intently on removing obstacles to effective 
integration and improved performance.
    The challenges are many, but the new Secretary can look forward to 
a bipartisan sense of commitment and resolve from this Committee.
    Thank you, Mr. Chairman.

    Chairman Lieberman. Thank you very much, Senator Collins, 
for that excellent opening statement.
    I mentioned in my opening statement that there were many 
groups that had welcomed President-elect Obama's nomination of 
Governor Napolitano. There may be many in the room. I note in 
the first row and I want to welcome Harold Schaitberger, head 
of the International Association of Fire Fighters, and I also 
saw here in a different sense, but very important to the whole 
history of the Department, Mary Fetchet, who is a founding 
Director of the Voices of September 11th, which has continued 
to be involved in the ongoing work of protecting the security 
of the American people so that no other families would 
experience the loss that the Fetchets did, certainly, the loss 
of a son on September 11, 2001.
    Governor Napolitano has filed responses to a biographical 
and financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had her financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of the financial data, which, as is our custom, 
will be on file and available for public inspection in the 
Committee's offices.
    Chairman Lieberman. Governor, our Committee rules require 
that all witnesses at nomination hearings give their testimony 
under oath, so I would ask you now to please stand and raise 
your right hand. Do you swear that the testimony you are about 
to give to this Committee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Governor Napolitano. I do.
    Chairman Lieberman. Thank you, and please be seated.
    Governor, it will be our honor and pleasure to hear your 
opening statement at this time.

TESTIMONY OF HON. JANET A. NAPOLITANO,\1\ TO BE SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Governor Napolitano. Well, thank you, Mr. Chairman, and 
good morning. Good morning, Ranking Member Collins and Members 
of the Committee. It is a privilege and honor to be seated 
before you today in nomination to serve as the Secretary of the 
Department of Homeland Security. And it is humbling because, as 
you know better than anyone, the urgent mission of this 
important agency is critical to the lives and security of every 
citizen of the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Napolitano appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    Mr. Chairman and Senator Collins, I want to particular note 
and commend your foresight and leadership with respect to this 
agency. After the tragedy of September 11, 2001, you understood 
the need for a more organized, systematic approach to domestic 
terrorism, to homeland security, and you held the vision to 
forge a new Department.
    I also would like to commend the first two Secretaries of 
the Department of Homeland Security--Secretary Ridge and 
Secretary Chertoff--for their work in building this Department, 
and particularly Secretary Chertoff for his work on the 
transition, which has been extensive and very thoughtful, not 
just by him but by a number of members of the Department. The 
Department has come a long way. But there is a ways to go, as 
you have noted, and I look forward to helping the Department 
become even better as time goes on.
    To secure the homeland means to find and kill the roots of 
terrorism, to stop those who intend to hurt us, to wisely 
enforce the rule of law at our borders, to protect our Nation's 
infrastructure, particularly things like our cyber 
infrastructure, as you mentioned, and to be prepared for and to 
respond to homeland disasters with speed, skill, compassion, 
effectiveness, and common sense.
    This is a mission of paramount importance to the Obama 
Administration, to this Committee, and to me. And as we seek to 
meet that responsibility, I seek to bring to this Committee 
several things. One is a close working relationship with this 
Committee and with the Congress. I recognize this Committee's 
unusual expertise with respect to the subject matter here, and 
I will cooperate fully with its oversight and investigative 
functions as we work together to keep building the Department.
    I also look forward to the Committee's assistance on making 
changes as changes need to be made. After all, we do share that 
common goal, a strong and vigorous Department of Homeland 
Security.
    I will also bring to this role, should I be confirmed, a 
great deal of experience. As Senator McCain and Senator Kyl 
noted, as a border governor on the Southwestern border, I have 
dealt with the immigration issue from every aspect since I 
entered public life in 1993. I know that border very well and 
the challenges presented there. I look forward to getting to 
know the Northern border as well as I know the Southwest 
border, because it is different. And we have already spoken, 
some of us, about the need to get as familiar with the North as 
I am with the South.
    As a governor, I bring other types of experience to this 
role. I was the governor during the Lewis prison hostage crisis 
in Arizona, a 15-day stand-off when several of our prison 
officers were kept hostage by armed inmates. And we were able 
to resolve that after 15 days without loss of life.
    The Kinder-Morgan pipeline that brings basically all the 
gasoline into the Phoenix area ruptured, and it was there that 
I recognized not only the criticality of infrastructure but how 
fragile it is and how necessary it is to have a working 
relationship with the private sector, which controls much of 
that physical infrastructure. It only takes one hot Sunday 
afternoon in August in Phoenix where people cannot get gasoline 
for a governor to recognize how critical that infrastructure 
is.
    I have dealt with drought, and the response to drought, and 
also with the major natural catastrophe that affects Arizona, 
which are forest fires that are ever increasing and ever 
larger.
    As governor, we created a 211 system in our State to 
provide alternative sources for information to the 911 system 
that is updated on a current basis and real-time basis during 
any type of emergency. We mobilized early and effectively to 
accept evacuees from Hurricane Katrina. And we were among the 
first States to create a State-wide anti-terrorism fusion 
center that is now being used as a model for other States.
    On the issue of cyber security, when I was the Attorney 
General, I created the first cyber crime unit within the 
Attorney General's office. We brought some of the first 
prosecutions in the country in that area. And as governor, by 
executive order I created a State-wide information security and 
privacy office to deal with all of the issues affecting the 
collection of data in databases, not just from a security side 
but from a privacy side as well.
    Because I am a governor, a chief executive, I have a lot of 
experience with budgets and management. And though the 
Department of Homeland Security is larger than the 
Administration of the State of Arizona, it shares with it some 
of those same features.
    There are many issues with the Department of Homeland 
Security, and I look forward to working with the Committee on 
them. We must work to make sure the Department continues to 
merge as a whole and has a unified vision for homeland 
security. We must work to streamline communications. We must 
work to recruit, train, and retain the best and the brightest 
amongst our employees. We must continue to work on Federal 
relationships with other agencies, and I will share with this 
Committee that during the course of the transition, President-
elect Obama has held a number of exercises with the national 
security team. And then, indeed, this week on Tuesday, there 
was one with President-elect Obama's security team and 
President Bush's current security team. And all of those 
exercises have illustrated the central role now that the 
Department of Homeland Security plays. And as we strengthen 
these Federal links, we must recognize the important 
partnerships we have with State and local enforcement and first 
responders. The Federal Government cannot do the homeland 
security function alone. Amongst all the departments, it is as 
essential as anything to make sure that we have linked in, 
planned with, and exercised with our State and local partners, 
and that is something that I hope to spend a great deal of 
effort on.
    We hope to move our security team in place at the 
Department as quickly as possible. I look forward, again, to 
working with this Committee, and I am privileged to appear 
before you today to discuss the issues of concern with you.
    I want to thank you for hearing me today, and I, again, am 
very humbled and privileged to receive this nomination.
    Chairman Lieberman. Thanks very much, Governor Napolitano.
    Let me start questioning with the standard questions that 
we ask of all nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Governor Napolitano. No.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Governor Napolitano. No.
    Chairman Lieberman. And, finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Governor Napolitano. Yes.
    Chairman Lieberman. Thank you. You are doing very well so 
far. [Laughter.]
    We are going to start our first round of questions limited 
to 7 minutes each. I had not planned this as my first question, 
but you said something that leads me to say this: From you and 
others that I have talked to, President Bush and his 
Administration have really been quite remarkable and proactive 
in this transition, and as far as I can remember, it is one of 
the best ever made, maybe the best.
    I appreciate that you thanked Secretary Chertoff for what 
he has done to get you ready to assume these jobs. This is 
obviously way beyond anything that is political and certainly 
not partisan. We are talking here about homeland security. But 
you said something that I had not known about, and if you are 
comfortable just saying a little more, you have actually gone 
through some exercises. I presume you mean exercises in 
responding to an imagined national security crisis alongside 
the Bush Administration team. Can you say a little more about 
that?
    Governor Napolitano. Yes, Mr. Chairman. On Tuesday, in the 
Old Executive Office Building, there was an exercise with the 
current President Bush team and the incoming nominees to walk 
through in sort of a tabletop fashion a scenario that is one 
that could happen. There is no firm intelligence that it would, 
but it is a scenario of multiple improvised explosive devices 
(IEDs) going off in different places over a period of time, and 
how that information would be received, processed, what 
different departments would begin to do. And that followed on 
the heels of several sessions that President-elect Obama has 
had with the incoming nominees on the security side to really 
not forget that national security team. That has been ongoing 
over the last several months as well.
    Chairman Lieberman. Well, that is very reassuring on both 
counts and obviously should encourage the American people that 
next Tuesday, when the new Administration takes over, you are 
going to be ready. Also, I will say from the point of view of 
this Committee that I am grateful and proud that you were right 
there in the middle of it because the Secretary of Homeland 
Security needs to be in the middle of it. It happens to be the 
newest Department of our government, but I will tell you that, 
in my opinion--and I hope everybody else's--it ranks in 
importance with the very first departments created by our 
government in its history. So I thank you for your answer to 
that question.
    There have been many positive things said about you in 
response to your nomination. Perhaps the only critique that I 
have heard--and I want to give you a chance to respond to it--
is that, yes, you have had extraordinarily law enforcement 
experience, you have had the management experience, and all the 
substantive experience that comes with being a governor, indeed 
a border State governor, managing response to disasters and 
crises, as you mentioned. But the criticism has been that you 
have had no specific involvement in counterterrorism, as it 
were. And I wanted to give you a chance at the outset to 
respond to that.
    Governor Napolitano. Yes, thank you, Mr. Chairman. I think 
my direct experience with counterterrorism began when I was 
U.S. Attorney for Arizona in 1995, when our office handled a 
large segment of the investigation of the Oklahoma City bombing 
case. As you may recall, the planning for that crime occurred 
within Arizona, and we were responsible for setting up the 
command center and all of the investigative measures that were 
taken in connection with that matter.
    Since then, on the prosecution side, I have handled cases 
that had aspects of that. I have prosecuted a militia group, 
for example, that was filming Federal buildings in the Phoenix 
area with the intent to blow them up simultaneously, and cases 
of that sort.
    Now, have I done that on a daily basis? Fortunately not, 
and that is just the reality of it. But the whole issue of 
terrorism and counterterrorism, the investigative mechanisms 
that must be employed, the appreciation of good-quality and 
credible intelligence, the understanding that not all 
intelligence received initially is accurate and that you really 
have to work to make sure you get to the bottom of things, that 
is something I have direct experience with.
    Chairman Lieberman. I appreciate that, and obviously, you 
bring, as you said in your opening statement--and as Senator 
McCain and Senator Kyl said--the unique management experience 
of a governor, regardless of the particular threat that you are 
responding to.
    Let me ask you one of those questions we always ask, and it 
is interesting but never definitive as you start up. Based on 
what you know now and the briefings you have had, give us a 
sense of what your two priorities will be as you go in as 
Secretary of Homeland Security.
    Governor Napolitano. I think initially I go in with the 
idea of continuing to create a unified vision for this 
Department and to create a culture, as it were, that this is a 
Department of Homeland Security that has many aspects to it, 
not 22 separate agencies. And that means having consistent 
guidance Department-wide on everything from the nuts and bolts 
of acquisition, program management, and procurement to how we 
handle getting information to me and from me in a management 
perspective.
    The second thing, Mr. Chairman, is this Department has a 
lot of parts to it, many of which require presidential 
appointment and confirmation, and we want to, as I said in my 
statement, recruit the best and the brightest to move into 
those leadership roles. And that will be an immediate priority.
    The third thing is in a way to complete the work of 
transition. I have had hours of initial briefings. Indeed, the 
Secretary was kind enough to send teams to Arizona so I could 
do briefings there while I continued to serve as governor. But 
should I assume the role as Secretary, should I be confirmed, 
there will be a whole other level I will want to get at, and we 
will go methodically through that.
    Some of the areas of the Department I have a lot of day-to-
day experience with, some not so much. We will want to get 
those things equivalent.
    Chairman Lieberman. Thank you. That is a good beginning. My 
time is up. Senator Collins.
    Senator Collins. Thank you.
    Governor, you mentioned in your opening remarks that for 
our Nation to be fully protected, there has to be a robust 
relationship with State and local governments. And, indeed, we 
talked about that in our private meeting as well.
    Yesterday, the Associated Press reported that key 
provisions of Arizona's Homeland Security Plan, which you first 
announced back in 2003, have not yet been implemented. And some 
of them are important provisions, such as establishing a State-
wide, interoperable radio communications program for first 
responders.
    What did you find to be the obstacles that prevented you on 
the State level from fully implementing a plan that you 
announced 6 years ago?
    Governor Napolitano. I am glad you asked that question, 
Senator. I think it will not surprise you when I say I don't 
think the newspaper story was entirely accurate. Indeed, it 
even misspelled the name of the Homeland Security Director in 
Arizona.
    Be that as it may, we had 10 action items in our Homeland 
Security Plan. Eight were fully effectuated. Two were not. One 
was to computerize all criminal records within the State of 
Arizona. We are well on our way to doing that. The records that 
have not yet been totally computerized come from the more rural 
parts of the State. The major urban areas, the urban areas that 
cover 90 percent or so of the State's population, now have been 
unified and computerized. So there is easy access for officers 
on the street. And the rest, should I have stayed as governor, 
would have been completed during the remainder of my term.
    On the interoperability issue, the key obstacle was 
funding, and that is something that, as the Secretary, I would 
hope to take up on an operational way, because I know of no 
State really that has been able to get to full 
interoperability.
    That being said, and given the true fiscal issues involved 
there, what we did in Arizona was we purchased a series of what 
I would call patch trucks--trucks that can be moved into 
different areas at different times to provide a connect between 
different types of radio systems. So, for example, if you have 
a forest fire in one area and you have a number of different 
responders working there, you send up the trucks to help make 
sure you have interoperability. If you have flooding in the 
Nogales wash at the border, you send the trucks down to make 
sure you have got some functional interoperability. The trucks 
were asked for in response to Hurricane Rita, we sent them over 
there. So we patched together an interoperability system that 
has worked for us while we deal with the greater 
infrastructure--and I think it is really a national issue of 
the entire interoperability concern.
    Senator Collins. Well, this is an area that the Chairman 
and I have worked a great deal on. We were appalled when 
Hurricane Katrina struck to find the same inability of first 
responders to communicate with one another that marked the 
attacks on our country on September 11, 2001. And that lack of 
interoperability truly cost lives. It is something that the 
Chairman and I have created a special funding program to assist 
States in this area.
    Do you anticipate helping us to increase the funding for 
that program given your experience with the cost obstacle in 
Arizona?
    Governor Napolitano. Senator, not just that. I really want 
to bring some people who are technically savvy to look at this 
interoperability issue, to make sure that we are getting the 
kinds of systems we really need with the best and most current 
technology available.
    One of the things I am concerned about, having dealt with 
this for the last 5 years, is I am not sure we have the right 
people talking with the right people about how this actually 
gets done. So it is a money issue, but I also want to make sure 
that from a technology standpoint we are really getting at it.
    Senator Collins. In your response to Senator Lieberman's 
question about priorities, you talked mainly about management 
issues. I would like to hear from you more about your 
priorities in the area of terrorism and counterterrorism.
    This Committee has attempted over the years to identify 
emerging threats, vulnerabilities such as our seaports, our 
chemical plants, and to enact legislation in this area. We have 
undertaken a major investigation into homegrown terrorism, 
which is not solved by better border security, for example. We 
are looking at the vulnerabilities of biological labs and of 
cyber security.
    When you look at emerging threats, what areas worry you the 
most? What areas are you going to particularly focus on?
    Governor Napolitano. Senator, I think one of the things we 
can do at the Department is to focus on areas that other 
departments don't necessarily focus on, because in the 
intelligence world, what I have perceived is there is a lot of 
duplication of people looking at the same things.
    But, in my view, two areas that this Department ought to 
focus on are transportation security from a prevention and 
protection standpoint, not just aviation but surface 
transportation as well. To pick up Senator Lieberman's comment, 
that is a work in progress. We haven't done as much there as we 
have done on the aviation; but also work with the private 
sector on the private infrastructure, and that is chemical.
    On the issue of biological materials, now you get into, in 
part, the academic sector because many of those facilities are 
at universities, which do not necessarily view themselves as a 
security risk the same way, say, a nuclear plant might.
    So those are the types of things where we want to guide the 
Department. Let's go where the gaps are that our Department is 
uniquely qualified to fill.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    We will go in the normal Committee custom, which is in 
order of arrival here. Senator Voinovich, welcome. You are 
next.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you.
    First of all, I really appreciated the opportunity that I 
had to spend some time in my office with you, and there is no 
question that you have the management qualifications to be 
Secretary of the Department. You have mentioned some 
experiences that you have had as governor that are relevant to 
the operation of the office. I am impressed with the grasp that 
you have of the Department, even though you have not been 
there. One of the things that I am interested in that I think 
would be very helpful to this Committee is that once you have 
had a chance to get in the saddle, come back with some of the 
priorities that you think are the most important and share with 
us ways that we can be of help. Maybe it is legislation, or 
maybe it is getting involved with the Administration to get 
some things done, like questioning whether you have the 
flexibility to hire, retain, and reward people that you are 
going to need in order to get the job done, and having the 
budget that you need to get the job done.
    My observation is that so many secretaries have been asked 
to do work but are not given the resources to do it. And I have 
always said that if you don't give someone the resources that 
they need to get the job done, you basically tell them that you 
don't think very much of the job you have asked them to do.
    One of the things that has been of real concern to me--and 
I know that some other Members of this Committee have been 
concerned about it--is that the 9/11 Commission Report made a 
recommendation to provide better and more streamlined oversight 
of the Department of Homeland Security. But I remember when the 
sense of the Senate that was accepted during this Committee's 
markup of the 9/11 Commission bill, calling on the Senate to 
reorganize itself, was removed from the bill before floor 
consideration.
    That is one of the big things that we have not done, and I 
think for the record you should know and the American people 
should know that we have 86 committees and subcommittees in the 
House and Senate overseeing DHS--and last year DHS was 
subjected to 375 visits to the Hill. That does not include the 
meetings that many Senators and Congressmen may have had with 
top people in DHS.
    Now, I think that is absolutely unacceptable. As a 
Committee, we should do what we can to try to respond to this 
recommendation of the 9/11 Commission so that the Secretary can 
get her job done and the people that are working for her can 
get it done, without having to come up here so many times to 
respond to Congress. I think that is something that I would 
like you to look at, and I would like the President perhaps to 
even explain that it is time that we enforce that provision of 
the 9/11 Commission Report.
    The other thing that you and I talked about was the Visa 
Waiver Program. I got very much involved in that in the last 
Congress, and I was pleased that the State Department and the 
Department of Homeland Security came together with a new system 
for expanding the program. That system, I think, is one that we 
should all be happy about. It not only improves the sharing of 
information from countries that are now part of the Visa Waiver 
Program, but it also has responded to a major public diplomacy 
problem that we had where many of these nations that have come 
into the North Atlantic Treaty Organization (NATO), and are our 
friends, were kept out of that program. I know there is going 
to be some heat that you are going to experience because of the 
program, and I would like you to tell me whether or not you are 
familiar with the recommendations that the Government 
Accountability Office (GAO) has made to improve the program, 
which I think are objective. And just where do you stand in 
regard to this issue?
    Governor Napolitano. Well, thank you, Senator, and to your 
first comments, thank you for those comments.
    With respect to Visa Waiver, I have looked generally at the 
GAO. I have not drilled down on the recommendations themselves. 
There is a balance, obviously, to be struck between the 
security issues implicated in Visa Waiver and the public 
diplomacy elements associated with Visa Waiver.
    So I look forward to working with you and the Committee on 
those recommendations and with the State Department, which has 
a very important role to play. But I am very cognizant of the 
very important balance that needs to be struck.
    Senator Voinovich. Well, I know I mentioned to a member of 
the State Department that if we were to overnight try and yank 
Visa Waiver privileges from the 35 countries that now have 
them, it could be a disaster in terms of public diplomacy, and 
I think we ought to be able to handle that in a more diplomatic 
way and get them to do some things we want them to do.
    The other issue I want to raise is the relationship that we 
have with Canada, and you are familiar with those problems 
because you have been a governor and Chairman of the NGA. One 
of the things that we have been promoting is to allow the 
passport card to be used--which today can be used for land and 
sea travel--for air travel. We would like you to look into 
that. You are probably going to be seeing some legislation to 
make that happen. I really think it is important that we calm 
the fears of our friends from Canada, that some of the security 
measures we are implementing may interfere with this wonderful 
relationship that we have with them.
    There are many other issues we talked about, but today I 
will mention the interoperability issue. I have visited four 
Ohio communities and spent several hours in each one of them 
discussing interoperability. Most of them are not where they 
are supposed to be. We have a really great program in Columbus. 
Ohio is lucky because when I was governor we instituted the 
Multi-Agency Radio Communications System (MARCS), which is one 
of the best in the country in terms of State-wide 
communication. But the real problem that most communities are 
having is they don't have the wherewithal to get the equipment 
that they need. I think you kind of alluded to the issue of 
technology and kinds of technology and looking at the issue of 
whether everybody is using the same thing and is there a 
problem with that.
    And then the other issue, of course, is interoperability 
between States. For example, Ohio has been working with the 
State of Michigan to try and make sure there is some 
interoperability there.
    So a lot of these issues are things that you have to dot 
the i's and cross the t's on, but I think you know from your 
experience as governor, that is where you get the job done, 
when you do that.
    Governor Napolitano. Thank you, Senator. And it is a 
resource issue. It is a regional issue. It is a State issue. 
But we have to get this done, and I think it is something that, 
given my own experience in Arizona and working with other 
governors, the Department really should take a leadership role 
on now.
    Senator Voinovich. And I am glad you understand that 
Emergency Management Performance Grants (EMPGs) are very 
important to making that happen. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich.
    I just want to say a word about the very strong point that 
Senator Voinovich made, about the 9/11 Commission 
recommendation that we reduce the number of committees to which 
the Secretary of Homeland Security reports. We actually tried, 
but when we brought that up on the floor, we got overwhelmed. 
You would be surprised to hear that there is a certain 
protection of turf that occurs here. Some consider subcommittee 
and committee chairmanships to be the beginning of policies of 
manifest destiny. So it is hard to resist.
    It is really not a good situation. I don't know that we can 
offer you the prospect of legislative help on this. But I would 
urge you at least to try to cut back on it by seeing if you can 
establish a rule of your own that you are only going to testify 
at the full Committee level. I think if you start getting 
picked away by subcommittees, except in circumstances when 
there is something really critical going on, it is going to be 
very hard for you to do the rest of what we want you to do. 
Thanks, Senator Voinovich, for bringing that up.
    Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    Let me start by making a comment. As I watched this hearing 
unfold this morning and Chairman Lieberman gavel us in and 
Senators McCain and Kyl introduce you, the thought kept running 
through my mind: Our democracy is a class act. And I want to 
say that I don't think there is anybody that could be more 
thrilled to have you sitting there than I am. And I want to 
welcome you and congratulate you. And I know you know this 
because we have talked about it. I think you are taking on one 
of the biggest and maybe one of the most difficult jobs in our 
country in terms of government. So enjoy today. [Laughter.]
    Because it is all going to be warm and fuzzy today, and 
that is probably going to be it.
    Let me talk a little bit about immigration enforcement. As 
you and I have discussed, I am a firm believer that enforcement 
on the employer side is the only way we are going to get true 
immigration reform in this country.
    Americans are not willing to support comprehensive 
immigration reform right now because they believe that we are 
looking the other way on enforcement. And, by the way, I don't 
think it is enforcement of the immigrants. You and I have 
talked about that these people are not coming to this country 
for a vacation. They are coming for a job. And I believe the 
Federal Government has hid behind the notion these cases are 
too difficult to make against employers.
    I believe the previous Administration purposefully looked 
the other way as it related to employers. E-verify or no E-
verify, the idea that the head of Immigration and Customs 
Enforcement (ICE) in this country in early September 2007 had 
no idea how many employers had received criminal sanctions was 
symptomatic of this attitude. And it took interns in my office, 
taking hours to go through records, to figure out how many 
employers had enforcement actions against them.
    We now know because the head of ICE then undertook the 
effort of determining how many employers had been sanctioned. 
We now know that both in fiscal year 2007 and fiscal year 2008, 
it was around 10 percent of the total. That is not enough 
because, frankly, everyone in this room knows--and there were 
only 22 entities that were fined in the whole country. You 
could find 22 in Missouri if you halfway decided to concentrate 
on it.
    So I would like to hear your plans for prioritizing the 
enforcement of our immigration laws against those who allow 40 
or 50 people to use the same Social Security number in the 
workplace.
    Governor Napolitano. Well, thank you, Senator, and I will 
try to remember the warm and fuzzy feeling later on, so thank 
you for mentioning that.
    With respect to employers, my experience is that you have 
to deal with illegal immigration from the demand side as well 
as the supply side. You have to enforce the rule of law at the 
border. That requires manpower and technology and a good system 
at the border itself.
    But you also have to deal with what is drawing people 
illegally across the border, and particularly with respect to 
the Southern border, to make that very tortuous and dangerous 
journey. And it is the prospect of a job. And we do have 
employers who use the lack of enforcement as a way to exploit 
the illegal labor market, to depress wages, to exploit workers 
on some cases, and that requires enforcement.
    Indeed, one criticism of the 1986 revision of our Nation's 
immigration laws was that it lost its credibility because there 
was no sustained employer enforcement action undertaken after 
that. So we need to do that.
    I signed the Nation's strongest employer sanctions bill 
when I was governor, in part because of my belief that you have 
to get at the employer side as well as the employee side. But 
you have to do it in the right way. You have got to do it in a 
smart way. And you have to target appropriately, and we have to 
have appropriate agreements with the Department of Justice and 
the U.S. Attorneys' Offices that they are going to bring actual 
cases.
    So one of the first things I will do, should I be confirmed 
as Secretary, is begin a collaboration with the Department of 
Justice and hopefully with the U.S. Attorneys' Offices 
throughout the country so that we can start moving actual 
prosecutive cases through the system.
    Senator McCaskill. Also, as we talked about, I think there 
is an opportunity. We have some unfortunate enforcement 
efforts, I think, that are going on at the State and local 
level. But I think with some leadership from your office, that 
talent and those resources could be channeled more effectively 
as we do a comprehensive enforcement strategy by utilizing 
local prosecutors. And that is why I think your experience, as 
a governor you know what it feels like when Washington isn't 
doing it right. And I know that you won't forget what it feels 
like when Washington is not doing it right. So I think that is 
a great plus.
    The other thing I want to bring up with you is, we used to 
say when I was a prosecutor that we were doing all the serious 
felonies, and the rapes and the murders, but the face of the 
criminal justice system is municipal court because that is 
where most people were coming in to pay traffic tickets and 
that is how people got their impression of how we were running 
the system of enforcing the law in my community. And I think 
the same thing is true on airport screenings as it relates to 
homeland security.
    I have to tell you, a whole lot of it has appeared ad hoc 
to the general public. The best example--and I have talked 
about it in this hearing before--is mascara. I mean, women 
across America were going, ``Huh?'' ``What is it about my 
mascara that is so threatening?'' And I never got a good answer 
to that question. By the way, they have quit worrying about 
mascara, quietly. Mascara is now OK for the women of America. 
You can take your mascara and not worry about it being taken 
from you. But they changed that without even really telling 
anybody.
    Now, I understand that there are things they change, and 
pat-downs have changed. I know because I have a fake knee, and 
I have to get patted down every time I go through the metal 
detector. So I am on the front lines of knowing how we are 
doing in terms of these airport screenings. Well, they have 
changed what they are doing on pat-downs.
    Now, I don't recall ever on this Committee us even being 
given any information about them changing pat-downs. And so if 
you are not a U.S. Senator and these changes are going on, you 
say, Well, what is going on? Why are they doing this? And it 
gives you a sense of unease that the people who are in charge 
have no idea what they are doing. And I would like you to speak 
to that.
    Governor Napolitano. Well, Senator, I think one of the 
things we need to do at the Department of Homeland Security is 
communicate because I believe the American people want to help 
participate in their own security and are willing to undertake 
and do things that are inconvenient or somewhat of a hardship 
if they believe there is a real reason for it.
    But you can't take advantage of that good will, and one of 
the things that we will be working on at the Department of 
Homeland Security is explaining when there is a change in 
procedure or why we are doing certain things the way we are. We 
also need to make sure that if we are going to enact something 
that is going to inconvenience 53 percent of the traveling 
public, there is a good databased reason for that change and 
the change is explained and carried out uniformly. Because 
another critique I have received in the course of the 
transition is inconsistency at different places for the same 
action.
    First of all, there are a lot of wonderful men and women 
working at the Transportation Security Administration (TSA), 
and they are doing a wonderful job. But we can work to make it 
even better and then explain it better to the American 
traveling public.
    Senator McCaskill. Thank you.
    Mr. Chairman, let me just say I do not want anyone to 
misinterpret. I am not anxious for the pat-downs to come back. 
I do not miss the extra love pats. So do not misinterpret my 
comment as saying I want there to be some good reason to 
reinstate the pats. So, thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator McCaskill. You left 
me speechless there for a moment. [Laughter.]
    Now we go to Senator Akaka. I was thinking about the 
membership of the Committee, that this Committee really is very 
geographically diverse--in addition to the extraordinary 
capabilities on it--really from sea to sea and coast to coast. 
And you mentioned earlier about the Northern border. Senator 
Tester has been a particular advocate for the security concerns 
of the Northern border. Obviously, Senator Akaka, who I am 
going to call on next, takes us all the way to Hawaii. Senator 
Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this hearing. For me it has been exciting to see the 
high-quality people President Obama is nominating for key 
posts.
    Governor Napolitano, I want to thank you for taking the 
time to be with us this morning, and I just want to repeat 
again that I am very impressed with you, your background, your 
experience, and also your performance prior to moving into the 
Cabinet position. And, therefore, you have really heightened my 
confidence in what is ahead for this Administration and this 
country with your service as Secretary of this Department.
    The Department of Homeland Security represents perhaps the 
most serious management challenge in the Federal Government 
today. At the beginning of a new Administration, the focus 
often is on new policy objectives. I urge you to focus closely 
on improving the Department's management functions as well.
    At Secretary Chertoff's nomination hearing 4 years ago, I 
stated--and I believe it is worth highlighting again--that the 
price of security should never erode our constitutional 
freedoms. There is an urgent need to review and revise policies 
at DHS that infringe on privacy and civil liberties. And I look 
forward to working with you on those issues.
    Before I move on to my questions, Mr. Chairman, I want to 
ask that my full statement be made part of the record.
    Chairman Lieberman. Thanks, Senator Akaka. Without 
objection, so ordered.
    Senator Akaka. Thank you very much.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Governor Napolitano, welcome and please accept my congratulations 
on your nomination to be Secretary for the Department of Homeland 
Security (DHS).
    The new Secretary of Homeland Security will face enormous 
challenges. As I have stated before, I believe DHS represents the most 
serious management challenge in the Federal Government today. The 
Department of Homeland Security has been on the Government 
Accountability Office's ``High-Risk List'' since 2003. Reforming the 
Department to be more efficient and effective will require dedication 
and innovative solutions.
    I urge you to focus closely on the Department's management 
functions, if you are confirmed. A key strategy for improving 
management will be to empower the Under Secretary for Management with 
the authority and resources to further develop coordination between 
DHS's numerous agencies and directorates.
    I am particularly concerned about the Department's acquisition 
management. There continues to be poor planning and oversight of major 
contracts at DHS, most notably the U.S. Customs and Border Protection's 
Secure Border Initiative (SBInet) virtual fence. The Department needs 
to act aggressively to recruit more acquisition professionals to 
develop and oversee contracts at DHS.
    Additionally, DHS must invest in its workforce in order to achieve 
better results. The Department continues to struggle with poor morale, 
as well as recruiting and retaining employees. DHS Headquarters was 
ranked 216 out of 220 agencies on the Partnership for Public Services' 
2008 Best Places to Work in the Federal Government survey. To improve 
this situation, the Department should make better use of hiring 
flexibilities and invest in the workforce through more robust student 
loan repayment, professional development, and mentorship programs.
    To be an employer of choice, DHS also must ensure that employees 
have input in management decisions and workplace protections, including 
collective bargaining rights. For example, the lack of basic worker 
protections, including collective bargaining rights. For example, the 
lack of basic worker protections has contributed to the Transportation 
Security Administration having one of the highest levels of attrition, 
discrimination complaints, and workers' compensation claims in the 
Federal Government. Continually losing trained and talented employees 
may jeopardize our security.
    Finally, as I stated during Secretary Chertoff's nomination hearing 
4 years ago, the price of security should never erode our 
constitutional freedoms. There is an urgent need to review and revise 
policies at DHS that infringe on privacy and civil liberties. For 
example, DHS's policy on searches of laptops and other electronic 
equipment at the border raises privacy concerns and should be reviewed.
    Likewise, the REAL ID Act poses privacy and other concerns. The 
REAL ID Act does not contain adequate protections for personal 
information that will be contained on REAL ID cards and in linked State 
databases. Furthermore, as you are well aware, REAL ID imposes large 
costs on the States. Numerous States, including Arizona, have passed 
legislation rejecting REAL ID. Air travel could be greatly disrupted if 
the problems with REAL ID are not resolved by the end of 2009, when the 
current extensions for REAL ID compliance expire. This would 
particularly harm Hawaii, as our economy is heavily dependent on 
tourism and most people arrive by air. It is time to repeal REAL ID and 
replace it with a solution that has State support and privacy 
protections.
    Governor Napolitano, I want to thank you for your dedication to 
public service--as a U.S. Attorney, as a Attorney General, as Governor 
of Arizona, and, I anticipate, as Secretary of Homeland Security. I 
look forward to working closely with you to protect our country and 
implementing reform.
    Thank you, Mr. Chairman.

    Senator Akaka. Governor Napolitano, you signed Arizona 
legislation rejecting REAL ID because of inadequate Federal 
funding. As you may know, I support more secure drivers' 
licenses, but I believe that REAL ID is deeply flawed. I have 
advocated repealing and replacing REAL ID with a more workable 
solution to increase State buy-in and improve privacy 
protections.
    Do you believe that it is time to review the REAL ID 
statute and, if its flaws cannot be fixed through 
administrative action, to amend or replace it?
    Governor Napolitano. Senator, I did sign a bill, and we 
were one of a number of States that said we would not 
participate in REAL ID, not out of a philosophical objection to 
the goal of having a secure driver's license that could be 
relied upon in our country, but because it is a huge fiscal 
burden and it costs a lot of money to do it.
    I also think that we did not have enough consultation and 
collaboration with States, which, after all, is where motor 
vehicle divisions are run and have the whole mechanism by which 
the REAL ID would be accomplished.
    So in response to your question, what I intend to do is to 
sit back down with a group of governors--the National Governors 
Association has formed a bipartisan task force here--and get 
the sense of their recommendations and where we need to go with 
respect to REAL ID. And if it is a matter that needs to be 
taken up again legislatively, I hope to work with this 
Committee on the necessary improvements, because as it stands 
right now, we really have a patchwork of States of what they 
are doing, and particularly with the condition of the States 
fiscally, I don't think we can reasonably anticipate that they 
have money available now to put into an enhanced driver's 
license program.
    So we need to rethink, revisit, reconsult, and then, if 
necessary, come back to this Committee.
    Senator Akaka. As you know, at this moment half of the 
States have passed laws rejecting REAL ID.
    DHS has struggled through poor morale, high turnover, and 
high vacancies due in part to the Department's efforts to alter 
collective bargaining rights and to implement a pay-for-
performance system. These proposals were resisted by the 
employees and their representatives, and ultimately were 
blocked by the courts and Congress because of fairness 
concerns. DHS must improve its ability to recruit, train, 
motivate, and retain skilled employees in order to meet its 
mission.
    Please discuss your key priorities for investing in the 
Department's workforce and ensuring a fair and transparent 
personnel system.
    Governor Napolitano. Well, Senator, I have been very 
impressed with the men and women I have met in the Department, 
both here in Washington--and those tend to be those in the 
higher reaches of the Department--but then out in the field as 
I have run into them in different circumstances.
    And so we start with that. We start with the premise that 
the men and women of this Department want to work to keep 
America safe. That is why they are here. That is their mission. 
And so we start with the good will.
    I think as the Secretary, we want to continue to enforce 
that. We want to provide for employees a sense of being part of 
this very important mission and some real career paths for them 
so that if they begin at a low level position, say in the TSA, 
they know that over the course of their career, if they perform 
well, they could advance and that it is a real career path for 
them.
    Those are the kinds of things that make for good morale, 
and those are the kinds of things that we will be working on.
    Senator Akaka. Governor, only one large U.S.-flagged cruise 
ship remains operating in Hawaii. Rapid growth in foreign-
flagged ships has forced domestic ships out of business by 
avoiding U.S. tax, labor, and employment laws. The Passenger 
Vessels Services Act (PVSA) restricts foreign-flagged ships 
from operating in U.S. ports, but it has not been enforced. 
Customs and Border Protection issued an interpretive rule on 
the PVSA clarifying the scope of the law, but the Office of 
Management and Budget returned that rule for further 
consideration.
    Will you work to craft a new interpretive rule to enforce 
the existing statute?
    Governor Napolitano. Senator, yes, I will be happy to look 
into that rule and its particular application to the Hawaii 
situation.
    Senator Akaka. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Akaka. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I appreciated the 
opportunity to visit with Governor Napolitano. And I just might 
add as a sidebar, Mr. Chairman, I don't think you are the first 
guy that Claire McCaskill has left speechless. [Laughter.]
    But that aside, I want to say welcome to the governor, and 
I appreciated the opportunity to visit with you yesterday. I 
think we have a lot of work to do. But as we have these 
Committee hearings with nominees, I would just say that I 
think, as Senator McCaskill said, you have a real opportunity 
to make a difference in the security of this country and the 
efficiency of how the Department works and how tax dollars are 
spent. And so I think that there is some real opportunity with 
those challenges as they come forward.
    I appreciate your willingness, as I do with everybody, to 
serve this country. Thank you for what you have done, and thank 
you for what you are about to do. I think you will be 
confirmed, and I hope it is done quickly.
    We have tried to move the discussion, as the Chairman has 
said, to the Northern border, how we use those resources, and 
making sure we use those resources well. As we go up there, we 
see Border Patrol with new stations and plenty of personnel. We 
see a lot of the ports on the Northern border where there are 
too few Customs inspectors. They are cramped and insufficient 
for dealing with the work that they have to do up there from my 
perspective. And I think it is bad for security, and I think it 
is bad for commerce.
    DHS does not appear to have an integrated, coherent 
strategy for the Northern border security that matches up well 
with the public identified threat. In the Implementing the 9/11 
Commission Recommendations Act, I included an amendment to do a 
study to look at the vulnerabilities on the Northern border and 
how DHS was going to plan to address them. Unfortunately, the 
document from my perspective was almost useless. There was no 
strategic plan for dealing with the border. There was nothing 
that indicated that there was any real thought given to the 
Northern border at all. And this is more than 7 years after 
September 11, 2001.
    What actions as Secretary would you take to ensure that we 
have sufficient and appropriate use of resources along the 
Northern border?
    Governor Napolitano. Well, Senator, I think one of the 
first things I want to do is go to the Northern border 
physically, get a sense of the area, see the facilities that 
are there, talk to members of the communities in those border 
towns--the mayors and sheriffs. I want to talk to the employees 
who work in those Border Patrol stations. I want to see what 
work has been done to having a Northern border strategy, and 
then really drill down on it to make sure that it is a cohesive 
strategy that makes sense for the geography that we are talking 
about.
    Senator Tester. You mentioned local law enforcement, 
visiting with them. What role do you see in your duration in 
this office local law enforcement playing in regard to border 
security?
    Governor Napolitano. Well, I think it is at least twofold, 
Senator. One is through programs like Operation Stonegarden 
augmenting overtime. They can help augment law enforcement 
interdiction, apprehension, and prosecution. But they also can 
and should be extra eyes and ears on the ground, and that 
doesn't necessarily require a formal financial relationship. My 
experience is that law enforcement is law enforcement. And if 
they are asked to keep an eye out for X and know that 
information is welcome and will be acted on--and also if 
information that the Federal Government has is shared with 
them--that is the kind of ongoing partnership with law 
enforcement that we want to build.
    Senator Tester. Good. I look forward to you building those 
relationships. I think they are important, and I think you get 
the most bang for the buck in those.
    As we talked about yesterday, we have a reservation, a 
significant Indian community, that butts up against Canada in 
the northwest part of the State, and there are some issues 
dealing with the sovereignty of that tribe in particular and 
our goals. And I do not think the goals are any different, but 
the sovereignty issue makes it a little different play.
    You have a Shadow Wolves Program in Arizona, I believe. 
First of all, does that work pretty well? And, second of all, 
do you think that is something that could work in other areas 
of the country when you are dealing in Indian country?
    Governor Napolitano. Senator, I cannot respond. I haven't 
looked at the Shadow Wolves program for a while. But I can say 
this: I am very sensitive to the sovereignty and jurisdiction 
issues that Indian country presents. Actually, in Arizona we 
have an Indian reservation. The Tohono O'odham reservation 
actually crosses the border into Mexico, and so we work with 
tribal leaders there in terms of what measures would be taken 
along that stretch of border, and it requires direct 
consultation and a realization that there are tribal 
jurisdictions involved in the homeland security picture, and 
there are differences there we need to appreciate.
    Senator Tester. Good. I want to associate myself with 
Senator Akaka's comments on REAL ID. I am not going to get into 
it, not because I don't think it is important; I think it is 
very important. But time is limited, and I think he hit on a 
lot of very good points that I absolutely agree with when you 
talk about freedom versus civil liberties.
    I do want to talk about small business contracting. This is 
a big agency that lays out some pretty large contracts, and in 
that process, from my perspective, they only get big 
contractors to bid on those big contracts.
    There are a lot of good ideas out there in small businesses 
that could really help border security from what I have seen, 
and I am sure you will get an opportunity to see some of that 
down the line. But would you make a commitment to really take a 
look at the small businesses and give them an opportunity to be 
a part of our security future as far as contracting goes?
    Governor Napolitano. Senator, yes, I will take a look at 
that whole issue of contracting, small versus large; also, the 
phenomenon of big contractors subcontracting and how that is 
working within the Department.
    Senator Tester. I would certainly appreciate that.
    Once again, governor, I look forward to working with you on 
this Committee. I look forward to you not having to come up and 
testify in front of all these committees, as Senator Voinovich 
said, because we will know you will be doing the right thing, 
and we do not need to bring you up every other day to quiz you.
    Thank you very much.
    Governor Napolitano. Thank you, Senator.
    Chairman Lieberman. Thanks you, Senator Tester. Senator 
Landrieu, good morning.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good morning, Mr. Chairman. Thank you so 
much. I always learn some most extraordinary things, Mr. 
Chairman, when I come to your hearings. And this morning I am 
happy that I now know who to thank for being able to keep my 
mascara as I am traveling.
    Chairman Lieberman. Yes.
    Senator Landrieu. I did not know it was our own colleague. 
Senator Collins----
    Chairman Lieberman. I had the same reaction myself. 
[Laughter.]
    Senator Landrieu. Yes, I know you enjoy keeping yours.
    Chairman Lieberman. Indeed.
    Senator Landrieu. But also, more seriously, I want to 
associate myself with the remarks of our Ranking Member on the 
issue of interoperability, and thank her again and the Chairman 
for their relentless work in this area. And although we have 
made progress, we have obviously a great deal more to go. I 
would only refer to one comment that will forever stick in my 
mind when I was doing a CNN interview within a day or two of 
Hurricane Katrina and I happened to be interviewed with the 
National Guard general from Alabama, who I could not see but I 
could hear because we were both being interviewed. And the 
question was posed to him, ``General, what is the 
communications system that you are using now?'' And I am going 
to paraphrase, but his response was generally: ``I hate to 
report, but we are basically using the technology that I 
imagine we used during the Civil War when we were sending 
runners,'' he said to the reporter. So I commented that was 
basically the same thing happening in Louisiana.
    So when I say on behalf of the people that I represent and 
the 1,900 people that lost their lives in those days after this 
catastrophe, I just can't impress upon you, should you be 
confirmed as Secretary--and you will, in fact, have my vote 
because of your outstanding credentials--the importance of 
getting this right.
    As I look at the firefighters on the front row, we don't 
have to go too deep within ourselves to remember the horrifying 
days in New York. And it is not fixed. This Committee has done 
a tremendous amount of work in trying to fix it, but without 
the right leadership pushing with us, it is impossible. So I 
look forward to working with you on interoperability, but I 
have two questions.
    Madam Governor, in President Bush's last press conference, 
which was just a few days ago, he was quoted as saying, 
``People say, `Oh, well, the Federal response was slow.' Don't 
tell me the Federal response was slow when there were 3,000 
people pulled off the roofs right after the storm passed.'' He 
was referring to Hurricane Katrina, prompted by a question by a 
reporter. ``It's a pretty quick response.''
    Apparently, the President has a lot on his mind the last 2 
weeks of his Administration, and I can appreciate that. But a 
cursory review of the historic record will reflect that 
although the storm hit on Monday morning early in the morning 
when hurricane force winds, Category 3 to 4, hit the 
metropolitan area, it was not until Friday that the first 
official military airplane or vehicle showed up.
    Now, the Louisiana Department of Wildlife and Fisheries was 
there, the National Guard was called out under Governor 
Blanco's direction, and the Coast Guard, God bless them, acted 
on their own standing authority to rescue those people. But 
when the real investigation is ever completed, if it ever is, I 
think the record will probably indicate that more people saved 
themselves by giving up and swimming or floating off their 
roofs to safety than actually who was rescued.
    Now, I don't know because there has been no real 
investigation that thorough. However, having said that, no one, 
except maybe the outgoing President, would say in the entire 
world that the response was quick.
    Can you briefly talk about your philosophy now as the 
incoming Secretary of Homeland Security, and with your 
experience as governor, how would you change the response? Do 
you recognize the significant role that the Federal Government 
must play in a catastrophic disaster, whether manmade or 
naturally occurring? Which in our case was both.
    Governor Napolitano. Senator, yes, I appreciate not only 
the gravity of Hurricane Katrina and its uniquely catastrophic 
impact, but also the fact that there is work left to be done. 
And one of the things I would seek to do, should I be confirmed 
as Secretary--and you and I have talked about this--is come 
down to New Orleans with you and get a sense of where we are, 
what needs to be done, what the obstacles are to completing the 
work that is underway, and get at it.
    I think that there have been a number of changes in FEMA 
post-Katrina in response to this Committee and others, strong 
and legitimate criticisms of what did not occur there on a 
timely basis. But there still is work to be done as well. And 
we want to make sure that, from my standpoint, FEMA plays a key 
role in our Nation's homeland security, not just in mitigating 
disasters before they occur and working to identify measures 
that can be undertaken, but also in quick response, recovery, 
and demonstrating the incredible resiliency of this country by 
getting people back in their homes, back to work, and 
communities re-established as quickly as possible. And those 
are all areas that FEMA has expertise in. They must be 
marshalled and then recognize that FEMA, like so many other 
areas of this Department, has to work in cooperation with State 
and local authorities, because so much of emergency preparation 
and response initially is done at the State and local level, 
because that is where the personnel are.
    But there has to be training, education, communication--all 
of those things that knit together an emergency response 
framework that really works. It can be done. It has been done 
in other situations. So it is not as if it has been a record of 
uniform total historical failure. But it also can be improved.
    Senator Landrieu. Thank you. And one more question. I know 
I have just a limited time, so if we could have a brief answer 
here.
    The State of Louisiana--and I am sure Mississippi and Texas 
are in this position as well; I don't have their specific 
numbers--has appealed approximately 1,200 public assistance 
projects, work order sheets, which you as a governor are very 
familiar with. Over $1 billion are in dispute. But the actual 
number is about 4,000 that basically FEMA and the State can't 
come to grips with, so these projects are stalled, our recovery 
is stalled, and jobs are being lost because of this.
    We would like to get this fixed in the stimulus package 
because the benefit is it doesn't cost any more money; we have 
already appropriated it. If we could fix it, we could get the 
recovery done and create jobs which would, I think, meet the 
President's objectives.
    But I just wanted to say for the record, in closing, and 
then ask for a brief response, auditors hired by the State of 
Louisiana, one of them in particular was RSMeans, which is a 
construction cost standard firm that basically trains the FEMA 
personnel. They were our auditors who said that the amount of 
money that FEMA owed was X. Despite that independent record of 
auditors that they obviously think well of because they trained 
FEMA, they still will not pay the money that the State believes 
it is owed.
    Will you take an aggressive role to fix that? And would you 
consider a binding arbitration system that we could get this 
recovery underway or something equally as effective to resolve 
the differences between States and FEMA on what is owed after a 
disaster?
    Governor Napolitano. Senator, I will take a serious look at 
that, and also I look forward to working with you and this 
Committee. I think all of us share the desire to work with 
Louisiana and try to begin getting some closure on some of 
these things.
    Senator Landrieu. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Landrieu.
    I do want to mention, as Senator Landrieu indicated, that 
there was one great agency that performed heroically, Federal 
agency, post-Katrina and right away, and that is the U.S. Coast 
Guard. And you are going to have the pleasure and honor of 
working with them because, obviously, they are now part of the 
Department. I say to those separationists, the Coast Guard, 
which in some ways might be said to have a real strong claim to 
be separate, seems to be very happy with the interaction in the 
Department, which speaks to the integrity of the Department, 
and also particularly of their connection in the Department to 
FEMA because they are so much a part of rescue. But they really 
were heroes.
    Senator Levin, welcome. Glad you could come by.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you so much, Mr. Chairman. Welcome, 
governor. You are a great appointment. We look forward to your 
service.
    I talked to you on the phone about a number of questions, 
and I want to raise them here just very quickly. I know you 
have been asked about the number of Border Patrol agents that 
need to be hired, the additional ones, and the requirement in 
law that 20 percent of the additional increase in agents be 
assigned to the Northern border. The Northern border has been 
shortchanged severely in terms of the number of agents. I think 
at least one of my colleagues has already gone into that issue 
with you.
    Are you aware of the requirement that 20 percent of the 
increase in Border Patrol agents be assigned to the Northern 
border? Is that something you are familiar with?
    Governor Napolitano. Yes, I am generally familiar with it, 
Senator.
    Senator Levin. All right. Will you take steps to see that 
the requirement is met? So far it has not been. Only 6 percent 
of the increase from 2006 to 2008 has been along the Northern 
border. Will you take that on?
    Governor Napolitano. Senator, I am going to look at the 
entire allocation of Border Patrol and where they are, and 
obviously, we want to make sure the allocations meet the 
requirements of law.
    Senator Levin. Thank you. I think you have also commented 
on interoperability issues. It is the No. 1 request we get from 
all law enforcement, an increased focus on interoperability, 
the ability to communicate with each other at all levels of 
government. Six of the demonstration grants are supposed to be 
in border States because of the needs that we have, not just to 
communicate with each other but also to communicate with Mexico 
and Canada.
    Is that something that you will look at and take seriously?
    Governor Napolitano. Yes, Senator. And, indeed, I will 
build on my own experience as governor of Arizona where at the 
State level we built an interoperability project with the State 
police of Sonora, Mexico, the State that borders us on the 
south, just because of the reason that when issues happen and 
you are a border area, they tend to go over the border.
    Senator Levin. Thank you. The Permanent Subcommittee on 
Investigations (PSI) of this Committee, which I chair, has 
looked into foreign corruption and the ability of corrupt 
foreign officials to receive financial safe haven here in the 
United States. In August 2006, President Bush announced the 
national strategy against kleptocracy, the use by corrupt 
foreign officials of our financial system to hide money which 
is improperly in their hands.
    What role, if any, do you see in the effort to make sure 
that kleptocrats do not receive safe haven physically or 
financially in the United States?
    Governor Napolitano. Senator, I think this is one of those 
areas where the Department of Homeland Security has a 
relationship with the Treasury Department and the Department of 
Justice. All would have a role here, but, again, drawing on my 
own experience, one of the ways you get at terrorism and 
counterterrorism is through the money-laundering and the money 
aspect channel. And I have a lot of experience in terms of 
damming warrants and other things with respect to interrupting 
the whole money aspect of not only terrorism, but human 
trafficking and drug trafficking.
    Senator Levin. At a time, governor, when demand for fire 
grant funding appears to be increasing, the Administration has 
continued to propose significant cuts in firefighter assistance 
in our budgets. Given the need and increase in demand for fire 
grants, to what extent do you believe the corresponding 
increases in firefighter assistance is warranted?
    Governor Napolitano. Again, Senator, this is an area that I 
have much experience in. Many people don't know, but Arizona is 
home to the largest Ponderosa pine forest in the continental 
United States, and we have had large fires during the course of 
my governorship, fires hundreds of thousands of acres in size. 
So those grants are very important.
    One other area I will want to look into, however, is 
funding for fire prevention and restoration of forest health, 
which might go a long way to helping us protect persons and 
property before fires that are started by whatever cause become 
these great big mega fires.
    Senator Levin. Mr. Chairman, I am going to have to return 
to the Armed Services Committee where we have four nominees 
before us. I thank you and the Ranking Member for holding this 
hearing and for prompt consideration of the governor's 
nomination. I look forward to her confirmation. I do have 
additional questions for the record. If we could get those 
answered promptly, I would appreciate it.
    Chairman Lieberman. Thanks, Senator Levin. Thanks for 
making the extra effort to come over. Give our regards, Senator 
Collins' and mine, to our Committee Members on the Armed 
Services Committee.
    Senator Levin. I have explained your absence already.
    Chairman Lieberman. Thank you.
    Governor, we will go to a second round. It looks like the 
three of us will go forward. I want to thank you for listing in 
response to Senator Collins' question about substantive 
priorities, after your understandable management priorities, 
non-aviation transportation. I appreciate that very much 
because I think it is urgent, unfinished business. We know that 
terrorists struck transit systems in Madrid and London--and, in 
fact, in Mumbai in, I believe it was, 2006 before the urban 
jihadist attack of last November. The latest number I have seen 
says that 14 million people use mass transit systems in the 
United States every day, so these involve a lot of people.
    I understand it is early in your term--in fact, it hasn't 
even begun yet. But what thoughts do you have about the steps 
you might take to improve homeland security in rail and transit 
systems in our country?
    Governor Napolitano. Well, Senator, should I be confirmed, 
one of the things I want to do--first of all, there is some 
real expertise in this country, and so I want to solicit their 
advice. It is not necessary to reinvent the wheel here. Then 
this is an area, again, where private entities need to be 
brought to the table, and municipalities, the actual owners and 
operators of these transportation systems. So we need to figure 
out a way how do we do that on as expeditious a way as 
possible.
    And then we need to move forward and say what are the easy, 
common-sense things--what is the low-hanging fruit--that we 
should do now or within the next 30, 60, or 90 days? What 
requires a longer-term strategy to accomplish? And really, just 
as I told Senator Tester, I really want to look at a Northern 
border strategy and plan, we want to do that for surface 
transportation. And we don't want to wait for the plan to do 
what we already know needs to be done, so you do that to get 
yourself started. But then things should fit into a longer-term 
strategy.
    Chairman Lieberman. We are going to do a lot of work 
together on this, and obviously, there is a lot to be learned 
at this point from other countries that are dealing with this 
problem.
    Interestingly, I think I mentioned when we spoke in my 
office, the Pew Research Center did a poll on various 
government services a while ago and asked the American people 
to rate them, favorable or unfavorable. And, interestingly, 
encouragingly, and probably surprisingly to some people, one of 
the highest-rated Federal services was the Transportation 
Security Agency. It was at 70 percent or higher. Unfortunately, 
one of the lowest rated was border security. I want to come 
back to that in a minute.
    One of the theories given by the organization that did the 
polling was that maybe more people have contact with TSA and 
they are generally positive. People are troubled by the 
controversies around border security. But I know that, being a 
border security governor, you know that these are real problems 
that go to the integrity of our immigration law and also, 
obviously, to our security.
    Senator McCaskill asked you about enforcement of some of 
the laws relating to employing illegal immigrants. And Senator 
Tester did somewhat with regard to using law enforcement 
personnel. I want to ask you more broadly, as you come in with 
some experience in border security, what are your thoughts 
about how better to secure our border and enforce our 
immigration laws? We have struggled with this. We have acted on 
it. We have spent a lot of money so far. Do you think we should 
attempt to cover the entire Southern border with a fence?
    Maybe I will stop there and let you begin to answer.
    Governor Napolitano. Well, I think border security requires 
a system, and a system has several parts to it. It requires 
boots on the ground. And so one of the things I will be 
counting as the Secretary, is not just how many agents we have 
or in training or what have you, but how many boots on the 
ground do we have in places at shift time.
    It requires technology. It requires things like ground 
sensors. The SBInet, which has had a problematic start, is 
something that I think, however, could hold great promise, and 
we want to keep pushing the issue of technology, because these 
borders are vast and manpower alone is not going to do it. You 
need to be able to augment manpower with technology and keep 
pushing that technology fence, as it were.
    There is a role for some fencing, particularly around urban 
areas, because it helps prevent those who are crossing 
illegally from blending immediately into a town population. But 
these borders are so vast that the notion that a fence alone is 
worth the expense to go, say, from San Diego to Brownsville, I 
don't think I would be giving good advice to the Committee if I 
said that is the way we are going to protect the border. It 
needs to be done strategically as part of a border system.
    And then you have got to have interior enforcement because 
once someone has run the gauntlet of the border, if they get 
through--and we have to anticipate that you are never going to 
have 100 percent protection against that--you need to have some 
means of interior enforcement, and that really is where the 
employer actions come in.
    I would like to mention as well, however, Senator, that 
there are those who use that border not just for labor. I mean, 
there are drug traffickers, there are human traffickers, and we 
have to be cognizant that there could be potential terrorists 
using that border.
    Chairman Lieberman. Sure.
    Governor Napolitano. To the extent we deploy law 
enforcement to deal with the illegal immigrant coming to work, 
we have to do the right thing to make sure that we continue the 
key focus on those that are coming to do real evil in our 
country and make sure that we haven't diluted our law 
enforcement resources to such a degree that we don't really 
have an adequate focus on those evildoers. And I want to make 
sure that we are working with State, locals, and other 
organizations on those borders, Northern and Southern, and that 
we are creating a good balance.
    I have a particular concern right now. Mexico, as you know, 
is undergoing a very serious issue with violence related to 
President Calderon's really quite admirable initiative going 
after the big drug cartels. But it has caused a lot of violence 
in those border States along the U.S. borders.
    Chairman Lieberman. Right.
    Governor Napolitano. So we have to be very cognizant of 
that, in addition to all the other concerns.
    Chairman Lieberman. When we spoke in my office, you had 
some interesting, practical, common-sense things to say about 
your experience in Arizona with the National Guard in terms of 
border enforcement. I wonder if you would expand on that a 
little bit now? Do you think we ought to make use of the 
National Guard in terms of border security?
    Governor Napolitano. Senator, I was one of the first 
governors to say the National Guard could play a very useful 
role here to augment Border Patrol, not to substitute for it 
but to augment it, so, in essence, you expand the manpower 
hours that we have. And I look forward to working with 
Secretary of Defense Robert Gates to see whether there is and 
can be a continuing role for the National Guard at the borders.
    Chairman Lieberman. Am I right that one of your conclusions 
or feelings was that the presence of the National Guard or even 
the announcement that the National Guard was involved in border 
security had a deterrent effect, perhaps particularly on some 
of those evildoers who are thinking of coming over, like drug 
dealers and human traffickers?
    Governor Napolitano. Yes, Senator, that was my perception. 
When Operation Jump Start began, which was the name given to 
the National Guard at the border initiative, there was an awful 
lot of press in Mexico about it. And I think that press in and 
of itself was very helpful.
    Chairman Lieberman. Well, I agree with that position. I 
know it has all sorts of sensitivities, but I thank you for 
your intention stated here to work with Secretary Gates and the 
Department of Defense on this. And I think it could be done in 
a thoughtful way that can both assure the enforcement of our 
laws and also keep out some of the people we want to keep out. 
Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Governor, the challenges of border security on the Northern 
border are very different from the focus on the Southern 
border. And I have already invited you to come to Maine to 
learn more about those challenges. But let me just give you a 
few examples.
    In border communities in Maine, Canadian nurses are 
absolutely essential to the operation of some of the smaller 
hospitals. They are crossing back and forth every single day.
    There is a golf course in northern Maine where the course 
is on the American side of the border, and the clubhouse is on 
the Canadian side of the border. And, lately, Customs and 
Border Protection is trying to enforce the crossing of the 
border in a way that affects that golf course.
    Another example is a potato farmer in northern Maine who 
literally has fields on both sides of the border. It is not 
really practical for him to have to drive many miles to go to a 
crossing in order to plow his fields.
    There are all sorts of practical realities because, prior 
to the attacks on our country on September 11, 2001, the border 
was very integrated in Maine. And it still is in many ways. 
Many families have relatives on both sides of the border.
    We are going to be facing, in June, the full implementation 
of the Western Hemisphere Travel Initiative, which has caused 
some concern in the State of Maine about what the impact will 
be on legitimate travel and trade. I would also point out that 
Canada is our biggest trading partner in the United States. An 
astonishing $1.5 billion of trade occurs every day between the 
U.S. and Canada.
    What will you do to ensure that as we keep implementing 
more stringent security requirements, we do not impede the 
legitimate flow of travel and trade between two friendly 
countries?
    Governor Napolitano. Senator, your question really 
illustrates how there are two competing interests really in the 
border area. One is security and we must continue to work to 
enforce the law, our immigration laws and our laws to keep 
evildoers out. But there are border communities all over where 
people need to go back and forth and have for years, for 
generations. So how do you accommodate those within an ever-
increasing border enforcement strategy?
    I think it is going to require some creativity on our part, 
and without saying today what we are going to do, I do have 
some ideas in this regard. One may be the kinds of 
identification that can be used by those who live on the border 
and must go back and forth regularly versus those that are only 
episodic travelers, say, for example.
    So I will look forward to working with you on some ideas 
there, but I think you recognize that there are a lot of 
legitimate family, trade, commerce, and tourism issues that are 
embodied here, even as we enforce border security, and that 
really an effective border security mechanism means that we 
have to accommodate both of those competing tensions.
    Senator Collins. Thank you. I look forward to working with 
you on that.
    Governor, there are a couple of Federal programs where you 
have been critical of the implementation, and now you are going 
to be in a position to solve all of these problems. I want to 
talk to you about two of them. One is a series of exercises 
that the Department of Homeland Security undertakes with State 
and local governments called the Top Officials (TOPOFF) 
exercises. I have participated in two of those, and my 
impression is quite different from yours. I thought they were 
very well run, very helpful to State and local governments, and 
focused on real-life scenarios.
    By contrast, in October 2007, you participated in a TOPOFF 
exercise and were very critical in a letter that you sent to 
Secretary Chertoff in early November 2007,\1\ in which you 
described the process as ``too expensive, too protracted, and 
too removed from a real-world scenario.'' You also said there 
wasn't sufficient information sharing, there wasn't a good 
feedback system.
---------------------------------------------------------------------------
    \1\ The letter to Secretary Chertoff referenced by Senator Collins 
appears in the Appendix on page 213.
---------------------------------------------------------------------------
    Well, now you are going to be in charge of those TOPOFF 
exercises. What are you going to do to address the concerns 
that you experienced?
    Governor Napolitano. Thank you, Senator. What goes around 
comes around, I guess is the point there. But one of the key 
concerns I had was the expense. I think exercises benefit from 
frequency, and one of the real benefits to be gained is people 
learning how to work with each other, who to call, who is going 
to be on the other end of a communique, who is prepared to 
stand up under what circumstances.
    One of the problems with TOPOFF is they are so gigantic and 
expensive that they really do not permit that.
    A second one is that they are too slow to get feedback to 
the participants. For example, we participated in October 2007. 
We don't yet have an analysis of what happened, why, and what 
worked and didn't work. Well, now the top officials who were 
involved in that, such as myself, many of us have moved on.
    So if we are going to be doing these kinds of things--and 
they are valuable. The underlying philosophy is a good one. But 
they need to be, in my view, streamlined, and the response in 
terms of analysis, improvements, and recommendations needs to 
be much quicker.
    Senator Collins. Thank you. Mr. Chairman, I will wait to 
ask my next question until after Senator Carper.
    Chairman Lieberman. Good. Then we will do one more quick 
round.
    Senator Carper, thanks for coming. I know you have had a 
busy morning, but we appreciate seeing you. You are a very 
steadfast Member of the Committee, but you are always here when 
there is a governor testifying.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I come before you as a recovering governor. 
[Laughter.]
    And with a little luck, you will come before us as a 
recovering governor in the years to come. I want to thank you 
for your service to the people of Arizona and to say it was a 
real pleasure to serve with you as a member of the board that 
you chaired for Jobs for America's Graduates, which is a 
nonprofit organization that is designed to help reduce dropouts 
in our schools. Thank you for that. I enjoyed that very much 
and appreciated your leadership then and as the governor of 
Arizona, and I look forward to your leadership in the 
Department of Homeland Security.
    I apologize for being late. We are saying good-bye today to 
two of our colleagues, and one of those is our State's senior 
Senator, Joe Biden. And for 2 months now, ever since he was 
elected Vice President-elect, people have been calling me 
``senior Senator.'' And people kept coming up to my wife and me 
at dinner at the national convention after he had been 
nominated and saying to my wife, ``Well, how does it feel? Your 
husband is going to be a senior Senator.'' And she would say, 
``I don't know.''
    We got back to our hotel room that night, and she said, ``I 
just have one question about this senior Senator stuff.'' I 
said, ``What is that?'' She said, ``Does it pay more?'' 
[Laughter.]
    I said, ``Well, no.'' And she said, ``Well, who cares?''
    But Joe Biden is going to be senior Senator for another 5 
hours and 2 minutes. Then it is my turn.
    Governor Napolitano. There you go.
    Senator Carper. And we will usher him out the door. But we 
just said good-bye. I have had to follow him on giving speeches 
in Delaware for 30 years. He is about as good as there is. And 
I had to follow him again today on the Senate floor as he said 
good-bye and as we said good-bye to him. And then when we 
finished that, Hillary Clinton gave her farewell address. It 
was very moving, very poignant. And so I apologize for being 
late, but I hope you understand.
    Later this weekend, in fact, there is a train coming down 
from Philadelphia to Washington, DC. They are going to make a 
stop in Wilmington, and Vice-President-elect Joe Biden and 
President-elect Barack Obama will make their way down to our 
Nation's capital, sort of a modern-day version of the whistle-
stop tour, and we are excited about it and looking forward to 
it.
    I know in Arizona you have some trains and other public 
transit. I come from a part of the country where there is a 
whole lot more of that, as you know. And we have more people in 
the tunnels that lead under the river into New York City at any 
given time than would fill up seven or eight 747s. During the 
course of a day, I think there are hundreds of thousands of 
people who are in those tunnels. Every day people are going up 
and down the Northeast corridor going through the Baltimore 
tunnel, which is about 150 years old. We have all kinds of 
bridges in places where people can do mischief to the folks 
that are using our trains or our transit. But we have been 
blessed and fortunate that we have not had the kind of terror 
attacks that they had in London and Madrid where a lot of lives 
have been lost. But I know others have spoken to you here today 
about making sure we don't just focus on air travel, but we 
must also focus on rail. And given the sort of renaissance that 
is going on with train travel across this country--ridership is 
up again this year by more than 10 percent. More and more 
people are taking the rails, not just in the Northeast 
corridor, but I think throughout densely populated corridors. 
So I would just ask that you be mindful of that.
    I also learned recently that during the altercation where 
the Russian troops moved into Georgia, it was not just Russian 
troops that moved in, but they did a pretty good job of really 
almost eliminating the ability of the Georgian country to 
operate in a lot of ways simply through cyber attacks. 
Apparently, they did something on a more modest level with 
another country, one of the Baltic countries, I think it was 
Estonia.
    Sitting here today, our Nation is under attack. Many of our 
departments are under attack. And it is not just by kids, it is 
not just by criminal elements. It is by sovereign nations 
trying to hack their way into our Department of Defense--trying 
to steal our weapons system ideas--and any number of other 
places, not just folks interested in capturing and stealing 
somebody's identity, but actually putting our Nation at peril 
and at risk.
    I would just ask you to share with us some of your 
thoughts, and I know this is something you are interested in 
and know about, but just share with us some of your thoughts as 
to how we can better address these threats--because my 
suspicion is those threats will not be diminishing during the 
time that you lead the Department of Homeland Security. If 
anything, they are going to be increasing. During the hearings 
of the Subcommittee on Federal Financial Management, Government 
Information, Federal Services, and International Security that 
Senator Coburn and I have held, it has been suggested that we 
are not doing all we can do on that front. But I would welcome 
your comments as to what we might do.
    Governor Napolitano. Well, Senator Carper, in earlier 
comments, I mentioned cyber infrastructure specifically as 
something that I think we are, in some important respects, at 
the beginning of attacking the attacks, as it were. And this 
is, again, one of those areas where the Department of Homeland 
Security, the Department of Defense, the Nation's intelligence 
structure, and others all have some kind of cyber aspect. But 
the Department of Homeland Security has a key and central role 
to play. We have the cyber center, but I think it is not 
heavily staffed; and I think this is an area that I am going to 
want to plow very deeply, very quickly, because I know that 
President-elect Obama has said several times that this is an 
area where he wants to get a national strategy and a national 
coordinated plan going--and using the best and brightest minds 
that we have in America where the cyber world is concerned, to 
make sure that we are employing them to help us protect that 
very valuable infrastructure.
    Senator Carper. I understand. Some of our adversaries are 
trying to figure out now how to hack into BlackBerrys, 
particularly BlackBerrys that are possessed by Presidents-
elect. And so I say this with tongue in cheek, but the threats 
are very real.
    Another issue that I am sure has been raised with you, I 
will just ask this one as well, and if you have already 
addressed it, maybe you can just truncate your response. But 
there have been a lot of discussions--all the imaginable debate 
we had when we put together Homeland Security as a Department--
as to what should be in, what should be out. Should FEMA report 
directly to the President? Should it not? How do we put all 
this together and not end up with what we call in Delaware a 
``dog's breakfast''? And I am sure there are days when some 
people think what we have created is very much that.
    But in terms of the structural change, what do you see 
about it that you like, that, for God's sake, don't change 
this, this makes sense? And what are some things you think 
might make some sense? Or is it just too early to say?
    Governor Napolitano. Well, I think, Senator, my key focus 
is to make the organization that we have work even better. 
There have been a number of reorganizations even within the 
Department's short life. All of those interrupt, cause delay, 
and so forth. And I think where I am going to start right now 
is take the organization we have, and how do we make it even 
better as opposed to moving a lot of boxes around?
    Senator Carper. I think we once had a Defense Secretary who 
said about our war in Iraq that you ``go with the Army you have 
been given.'' And so you will have a chance to go with the 
Department that you have been given. We look forward to not 
only working with you on the issue of cyber attacks and the 
issues of rail safety, but we look forward to working with you 
once you have had a chance to settle in and decide what does 
make sense and, frankly, what does not and to see if there are 
any changes that should be made.
    I have always felt that the most important thing is not 
necessarily the structure of an organization, although that is 
important, but even more important, the kind of people that we 
choose to provide leadership in the various parts of that 
organization. We did not always do so well in the current 
Administration picking leadership, especially in areas of first 
responders. And FEMA is a good example of that and the poster 
child for that. But we have a responsibility to scrutinize and 
look closely at the people that the Administration sends to us 
for confirmation, and I would just encourage you to find people 
who know how to do the jobs to which they have been nominated.
    Thank you again for your willingness to take this on. 
Hopefully, you will be confirmed, I am pretty sure you are 
going to be, and if that happens, we just very much look 
forward to working with you. Thank you.
    Governor Napolitano. Thank you, Senator.
    Chairman Lieberman. Thanks, Senator Carper. Listening to 
your telling of the conversation with your wife about being the 
senior Senator, it struck me that if my late mother were here, 
she would say to you that the reward you deserve for being the 
senior Senator from Delaware, you will have to probably wait to 
receive it until the world to come. And so I hope that gives 
your wife some encouragement. [Laughter.]
    You shouldn't arrive there too soon. But, anyway, we thank 
you for your service, senior or junior, on this Committee and 
in the Senate.
    Senator Carper. Mr. Chairman, the only thing I would say in 
response to that comment is that I would ask unanimous consent 
to put my full statement in the record.
    [The prepared statement of Senator Carper follows:]
                  PREPARED STATEMENT OF SENATOR CARPER
    Thank you, Mr. Chairman. My thanks to you, as well, Governor 
Napolitano for giving up what I know as a former governor is a great 
job to take on the challenge of managing the Department of Homeland 
Security.
    Your new job, if you are confirmed, Governor, will certainly come 
with its share of challenges. I know you're aware of that. But it will 
also present you with some opportunities.
    We've spent a lot of time and money since September 11, 2001, and 
since the creation of the Department of Homeland Security preparing for 
certain kinds of attacks. But going on 8 years since those events, we 
have a chance--and I would argue an obligation--to evaluate what we've 
done to date, to see what has worked and what has not, and to re-focus 
our efforts and our scarce resources on the new threats we face. I 
suspect that at least some of those threats were not even on our radar 
screens on September 11, 2001, or even a few years ago.
    One of these newer threats that we need to work to address is the 
threat of cyber attack.
    Over the past few years, Senator Coburn and I have held several 
hearings in our Subcommittee on the importance of protecting the 
Nation's critical infrastructure and sensitive information from cyber 
attacks. We learned that our economic infrastructure and our military 
and government operations are at extreme risk of being hindered or, in 
some cases, shut down altogether as a result of some well-documented 
and exploitable weaknesses.
    Since we began our oversight, the threat has become an increasingly 
scary reality. Over the past year, we have seen two sovereign nations 
undergo cyber attack by Russia. In addition, the Departments of 
Defense, State, and Commerce have had their networks hijacked by China. 
Utilities and financial institutions have also come under attack. I'm 
not certain that the Federal Government and the Department of Homeland 
Security in particular are prepared to address these challenges.
    I also question our efforts in the area of transit security, 
including inter-city passenger rail.
    We can all walk into an airport and see the efforts that have been 
undertaken to make flying safer since September 11, 2001. That is not 
the case with transit security despite the fact that some of the worst 
terrorist attacks we've seen since September 11, 2001, have occurred on 
mass transit in cities like London and Madrid. I'm not advocating that 
we replicate the security procedures we have in place at airports, at 
train and bus stations but I do think that we need to do more than we 
have done to date to protect those of us who rely on Amtrak and transit 
on a daily basis.
    Those issues--cyber security and transit security--are just two of 
the many that this change in leadership gives us a chance to look at 
with a fresh set of eyes. I look forward to working with you and your 
team, Governor, as you take the reins of the department and do just 
that.
    Thank you again, Mr. Chairman.

    Chairman Lieberman. I want to come back to some issues 
related to how people get into the country that are under your 
jurisdiction as Secretary. I want to mention one that you may 
not have been briefed on, but I want to try to put it on your 
radar screen because it has concerned me. It relates to the 
Visa Waiver Program, which I think is a good program. The 
intentions are good. And it has both commercial advantage to 
make it easier for tourists to get in here, and it is also a 
diplomatic step with regard to certainly countries in the 
former Soviet Union who have now become our close and very 
supportive allies.
    But it does involve risk when you make it easier for people 
to come in here, and this risk is not just or even primarily 
associated with the new countries that have been allowed into 
the Visa Waiver Program. It is true of the countries that have 
been in there a long time in Western Europe. After all Zacarias 
Moussaoui, one of the September 11, 2001, terrorists, came in 
from France. Richard Reid, the shoe bomber, came in from 
England.
    This Committee was very concerned about this potential 
vulnerability that was inherent in the Visa Waiver Program, and 
in the second wave of 9/11 Commission legislation in 2007, we 
included a provision to secure the Visa Waiver Program, and the 
goal, to put it simply, was to make sure that any passenger who 
got on an airline from one of the Visa Waiver countries had to 
be checked against a terrorist watchlist before they could get 
onto the airplane.
    The Department now has created a mechanism for doing this 
which they call the Electronic System of Travel Authorization 
(ESTA). In fact, it went into effect on Monday of this week. 
But I, as you may know, have made no secret of the fact that 
while I am a supporter of the Visa Waiver Program, I believe 
the Department moved much too quickly to certify the Electronic 
System of Travel Authorization as operational in order to allow 
the new countries to get into the program. And the fact is that 
GAO has been critical of ESTA, and even some Department 
officials have confirmed to our Committee that airlines lack 
the ability to determine whether travelers from Visa Waiver 
Program countries have obtained travel authorizations from 
ESTA.
    So I don't know whether you have been briefed on it. If you 
have any preliminary thoughts about it, I would welcome them. 
If not, I would ask that you make this a priority of your 
attention as you come in.
    Governor Napolitano. Well, Senator Lieberman, as I 
responded to Senator Voinovich, the whole visa waiver issue is 
a balance between the security needs of our country and public 
diplomacy. In some ways, it is reminiscent of actual 
enforcement of border security. There is the good and the bad 
that always need to be looked at.
    Secretary Chertoff did brief me on ESTA over the course of 
the last 6 weeks, but I have not had the opportunity, 
obviously, to look into what actually has occurred and what is 
the capacity there that has been operationalized. So I will be 
happy to look into that and to work with you on that, Senator.
    Chairman Lieberman. I appreciate it. A final question from 
me, a very different kind of question related to how people get 
into the country, and that is, how we treat those who seek 
asylum in our country. I have been interested in this for a 
number of years, particularly after a report of the--I forgot 
the official name, but it is a commission on religious freedom 
that was set up by our government that reports periodically. 
They did a searing report on the way in which people are coming 
to the United States seeking asylum based on discrimination, 
and worse, in their home countries because of their religion, 
and also relates to people seeking political asylum, in the way 
that they are housed. I understand that this right of asylum 
can be gamed. We all understand that. That is why we create a 
filter. But non-criminal aliens here are being housed for very 
long periods of time in high-security detention facilities and, 
because there is not enough of them, in local and county jails 
where they are often denied medical care or basic needs. That 
is just the finding that the commission and others have had. 
They are also not permitted to request their release from an 
immigration judge. So it is just the kind of behavior that we 
do not want to continue particularly for people who have in 
mind those moving words on the base of the Statue of Liberty 
about this being a sanctuary for those seeking freedom, as it 
has been.
    So I wanted to ask you whether you have any information on 
that or an opinion now. Or as Secretary, of course, would you 
consider taking steps to improve the treatment of asylum 
seekers while obviously also carrying out the law to make sure 
that they have a genuine cause to be granted asylum here in the 
United States?
    Governor Napolitano. Mr. Chairman, you are correct. I have 
not spent a lot of time working my way through that particular 
issue. I have been giving some attention to the whole area of 
detention and the ICE facilities. But I will be more than happy 
to drill down, look into what is there, what allegations are 
being made, if they really fact based, and to work with you and 
your staff on this.
    Chairman Lieberman. Good. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Governor, in October, you sent a very strong letter to the 
Federal Government with an invoice calling upon the Federal 
Government to reimburse Arizona for more than $500 million for 
incarcerating criminal aliens.\1\ And you say in the letter, 
``By refusing to fully reimburse Arizona for its SCAAP''--the 
acronym for the State Criminal Alien Assistance Program--
``costs, the Federal Government has unfairly forced Arizona to 
bear the Federal Government's costs arising from its failure to 
adequately secure its borders.''
---------------------------------------------------------------------------
    \1\ The lettter to Attorney General Mukasey referenced by Senator 
Collins appears in the Appendix on page 215.
---------------------------------------------------------------------------
    I suspect maybe in October you were not aware that you 
might be the Secretary of Homeland Security.
    Now you are going to have a role to play not only in border 
security, but in helping to set priorities in the budget for 
the new Administration. Do you think this bill should be paid 
now?
    Governor Napolitano. Senator, first of all, the bill went 
to the Attorney General of the United States, so if the 
governor----
    Senator Collins. Still the Federal Government.
    Governor Napolitano [continuing]. Of Arizona sends a bill, 
I will be happy to give it to the Attorney General. [Laughter.]
    But the greater point remains, and that is, I think one of 
the reasons President-elect Obama asked me to serve in this 
position is the real-world experience I have had in dealing 
with an immigration system which, when broken, falls unfairly 
on border States. Five hundred million for a State like 
Arizona, where the annual budget is just about $10 billion, is 
a lot of money. So I would hope to contribute to the 
discussions within the Executive Branch and bring to bear that 
experience and suggest some options that might be proposed.
    Senator Collins. In all seriousness, it is a significant 
burden for border States, and I do think given that the law 
requires the reimbursement and, as you eloquently point out in 
your letter, the Federal Government is only paying pennies on 
the dollar, it is an issue that does need to be reviewed. And I 
think it is very helpful to have a governor in the Cabinet who 
has been on the other side of unfunded mandates and unfulfilled 
promises.
    A similar one is the REAL ID law. I completely support the 
goal of having more secure driver's licenses. The 9/11 
Commission pointed out that some of the hijackers were able to 
use their licenses in order to board airplanes. It is 
unacceptable that people in this country illegally are able to 
get driver's licenses because it is a gateway card. On the 
other hand, there is no doubt that it is an expensive process 
for States to come into compliance.
    I do hope that you will work to come up with additional 
financial assistance to help States comply with the goals of 
the REAL ID program. Otherwise, we are imposing a very 
expensive unfunded Federal mandate on the States.
    Governor Napolitano. Well, Senator Collins, as I said to 
Senator Akaka earlier, it is the unfunded mandate aspect of it, 
but I think getting governors back to the table is important as 
well because in the end, if it is going to work, the States 
really are where it is going to be operationalized. And so we 
are going to have to build that partnership in a much different 
way than we have had heretofore.
    Senator Collins. And, finally, I do have some questions 
that I would ask to submit for the record as well as some 
questions for the record from Senators Specter and Grassley 
that I would ask unanimous consent be submitted as well.
    I do want to reinforce what the Chairman said about the 
Coast Guard. It is an absolute gem. It is the one agency at all 
levels of government that performed extraordinarily well in the 
wake of Hurricane Katrina. It needs budget help, especially 
given the new White House directive on the Arctic Region. It is 
going to have the need for additional ice breakers, and I am 
going to be submitting some questions to you about that as 
well.
    And, finally, I would be remiss in my capacity as the 
Ranking Minority Member if I did not supplement the question 
that the Chairman asked you at the beginning, and that is to 
ask you, in addition to responding to requests for information 
from the Chairman or joint requests, will you also be 
responsive to requests for data and other information from 
Minority Members of this Committee?
    Governor Napolitano. Yes. And with respect to the Coast 
Guard, Senator Collins, I would be remiss if I didn't mention 
that the Admiral in charge, the Commandant of the Coast Guard, 
is actually from Arizona.
    Senator Collins. That seafaring State.
    Governor Napolitano. There it is. [Laughter.]
    Senator Collins. Surprising. Thank you, Mr. Chairman. And, 
again, I want to join you in expressing my hope for a very long 
and productive relationship with the nominee.
    Chairman Lieberman. Thanks, Senator Collins. Without 
objection, the questions from our colleagues will be submitted 
for the record.
    We are going to keep the record open until the close of 
business today for the submission of any written questions or 
statements for the record. Now, that is very quick, but that is 
because of the sense of urgency that the Committee has about 
how important it is to get you confirmed as soon after 
President-elect Obama becomes our President by taking the oath 
as soon as possible.
    Governor, I thank you for your testimony today. You have 
been very informed, very helpful. Occasionally, you have been 
funny. [Laughter.]
    And overall you have shown yourself ready to take on the 
awesome responsibilities that come with being Secretary of 
Homeland Security. I would be very proud to support your 
nomination on the floor, and I look forward to working with 
you, as I know Senator Collins does, in the years ahead.
    With that, the hearing is adjourned.
    Governor Napolitano. Thank you.
    [Whereupon, at 12:19 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 49487.005

[GRAPHIC] [TIFF OMITTED] 49487.006

[GRAPHIC] [TIFF OMITTED] 49487.007

[GRAPHIC] [TIFF OMITTED] 49487.008

[GRAPHIC] [TIFF OMITTED] 49487.009

[GRAPHIC] [TIFF OMITTED] 49487.010

[GRAPHIC] [TIFF OMITTED] 49487.011

[GRAPHIC] [TIFF OMITTED] 49487.012

[GRAPHIC] [TIFF OMITTED] 49487.013

[GRAPHIC] [TIFF OMITTED] 49487.014

[GRAPHIC] [TIFF OMITTED] 49487.015

[GRAPHIC] [TIFF OMITTED] 49487.016

[GRAPHIC] [TIFF OMITTED] 49487.017

[GRAPHIC] [TIFF OMITTED] 49487.018

[GRAPHIC] [TIFF OMITTED] 49487.019

[GRAPHIC] [TIFF OMITTED] 49487.020

[GRAPHIC] [TIFF OMITTED] 49487.021

[GRAPHIC] [TIFF OMITTED] 49487.022

[GRAPHIC] [TIFF OMITTED] 49487.023

[GRAPHIC] [TIFF OMITTED] 49487.024

[GRAPHIC] [TIFF OMITTED] 49487.025

[GRAPHIC] [TIFF OMITTED] 49487.026

[GRAPHIC] [TIFF OMITTED] 49487.027

[GRAPHIC] [TIFF OMITTED] 49487.028

[GRAPHIC] [TIFF OMITTED] 49487.029

[GRAPHIC] [TIFF OMITTED] 49487.030

[GRAPHIC] [TIFF OMITTED] 49487.031

[GRAPHIC] [TIFF OMITTED] 49487.032

[GRAPHIC] [TIFF OMITTED] 49487.033

[GRAPHIC] [TIFF OMITTED] 49487.034

[GRAPHIC] [TIFF OMITTED] 49487.035

[GRAPHIC] [TIFF OMITTED] 49487.036

[GRAPHIC] [TIFF OMITTED] 49487.037

[GRAPHIC] [TIFF OMITTED] 49487.038

[GRAPHIC] [TIFF OMITTED] 49487.039

[GRAPHIC] [TIFF OMITTED] 49487.040

[GRAPHIC] [TIFF OMITTED] 49487.041

[GRAPHIC] [TIFF OMITTED] 49487.042

[GRAPHIC] [TIFF OMITTED] 49487.043

[GRAPHIC] [TIFF OMITTED] 49487.044

[GRAPHIC] [TIFF OMITTED] 49487.045

[GRAPHIC] [TIFF OMITTED] 49487.046

[GRAPHIC] [TIFF OMITTED] 49487.047

[GRAPHIC] [TIFF OMITTED] 49487.048

[GRAPHIC] [TIFF OMITTED] 49487.049

[GRAPHIC] [TIFF OMITTED] 49487.050

[GRAPHIC] [TIFF OMITTED] 49487.051

[GRAPHIC] [TIFF OMITTED] 49487.052

[GRAPHIC] [TIFF OMITTED] 49487.053

[GRAPHIC] [TIFF OMITTED] 49487.054

[GRAPHIC] [TIFF OMITTED] 49487.055

[GRAPHIC] [TIFF OMITTED] 49487.056

[GRAPHIC] [TIFF OMITTED] 49487.057

[GRAPHIC] [TIFF OMITTED] 49487.058

[GRAPHIC] [TIFF OMITTED] 49487.059

[GRAPHIC] [TIFF OMITTED] 49487.060

[GRAPHIC] [TIFF OMITTED] 49487.061

[GRAPHIC] [TIFF OMITTED] 49487.062

[GRAPHIC] [TIFF OMITTED] 49487.063

[GRAPHIC] [TIFF OMITTED] 49487.064

[GRAPHIC] [TIFF OMITTED] 49487.065

[GRAPHIC] [TIFF OMITTED] 49487.066

[GRAPHIC] [TIFF OMITTED] 49487.067

[GRAPHIC] [TIFF OMITTED] 49487.068

[GRAPHIC] [TIFF OMITTED] 49487.069

[GRAPHIC] [TIFF OMITTED] 49487.070

[GRAPHIC] [TIFF OMITTED] 49487.071

[GRAPHIC] [TIFF OMITTED] 49487.072

[GRAPHIC] [TIFF OMITTED] 49487.073

[GRAPHIC] [TIFF OMITTED] 49487.074

[GRAPHIC] [TIFF OMITTED] 49487.075

[GRAPHIC] [TIFF OMITTED] 49487.076

[GRAPHIC] [TIFF OMITTED] 49487.077

[GRAPHIC] [TIFF OMITTED] 49487.078

[GRAPHIC] [TIFF OMITTED] 49487.079

[GRAPHIC] [TIFF OMITTED] 49487.080

[GRAPHIC] [TIFF OMITTED] 49487.081

[GRAPHIC] [TIFF OMITTED] 49487.082

[GRAPHIC] [TIFF OMITTED] 49487.083

[GRAPHIC] [TIFF OMITTED] 49487.084

[GRAPHIC] [TIFF OMITTED] 49487.085

[GRAPHIC] [TIFF OMITTED] 49487.086

[GRAPHIC] [TIFF OMITTED] 49487.087

[GRAPHIC] [TIFF OMITTED] 49487.088

[GRAPHIC] [TIFF OMITTED] 49487.089

[GRAPHIC] [TIFF OMITTED] 49487.090

[GRAPHIC] [TIFF OMITTED] 49487.091

[GRAPHIC] [TIFF OMITTED] 49487.092

[GRAPHIC] [TIFF OMITTED] 49487.093

[GRAPHIC] [TIFF OMITTED] 49487.094

[GRAPHIC] [TIFF OMITTED] 49487.095

[GRAPHIC] [TIFF OMITTED] 49487.096

[GRAPHIC] [TIFF OMITTED] 49487.097

[GRAPHIC] [TIFF OMITTED] 49487.098

[GRAPHIC] [TIFF OMITTED] 49487.099

[GRAPHIC] [TIFF OMITTED] 49487.100

[GRAPHIC] [TIFF OMITTED] 49487.101

[GRAPHIC] [TIFF OMITTED] 49487.102

[GRAPHIC] [TIFF OMITTED] 49487.103

[GRAPHIC] [TIFF OMITTED] 49487.104

[GRAPHIC] [TIFF OMITTED] 49487.105

[GRAPHIC] [TIFF OMITTED] 49487.106

[GRAPHIC] [TIFF OMITTED] 49487.107

[GRAPHIC] [TIFF OMITTED] 49487.108

[GRAPHIC] [TIFF OMITTED] 49487.109

[GRAPHIC] [TIFF OMITTED] 49487.110

[GRAPHIC] [TIFF OMITTED] 49487.111

[GRAPHIC] [TIFF OMITTED] 49487.112

[GRAPHIC] [TIFF OMITTED] 49487.113

[GRAPHIC] [TIFF OMITTED] 49487.114

[GRAPHIC] [TIFF OMITTED] 49487.197

[GRAPHIC] [TIFF OMITTED] 49487.198

[GRAPHIC] [TIFF OMITTED] 49487.199

[GRAPHIC] [TIFF OMITTED] 49487.200

[GRAPHIC] [TIFF OMITTED] 49487.201

[GRAPHIC] [TIFF OMITTED] 49487.202

[GRAPHIC] [TIFF OMITTED] 49487.203

[GRAPHIC] [TIFF OMITTED] 49487.204

[GRAPHIC] [TIFF OMITTED] 49487.205

[GRAPHIC] [TIFF OMITTED] 49487.206

[GRAPHIC] [TIFF OMITTED] 49487.207

[GRAPHIC] [TIFF OMITTED] 49487.208

[GRAPHIC] [TIFF OMITTED] 49487.209

[GRAPHIC] [TIFF OMITTED] 49487.115

[GRAPHIC] [TIFF OMITTED] 49487.116

[GRAPHIC] [TIFF OMITTED] 49487.117

[GRAPHIC] [TIFF OMITTED] 49487.118

[GRAPHIC] [TIFF OMITTED] 49487.119

[GRAPHIC] [TIFF OMITTED] 49487.120

[GRAPHIC] [TIFF OMITTED] 49487.121

[GRAPHIC] [TIFF OMITTED] 49487.122

[GRAPHIC] [TIFF OMITTED] 49487.123

[GRAPHIC] [TIFF OMITTED] 49487.124

[GRAPHIC] [TIFF OMITTED] 49487.125

[GRAPHIC] [TIFF OMITTED] 49487.126

[GRAPHIC] [TIFF OMITTED] 49487.127

[GRAPHIC] [TIFF OMITTED] 49487.128

[GRAPHIC] [TIFF OMITTED] 49487.129

[GRAPHIC] [TIFF OMITTED] 49487.130

[GRAPHIC] [TIFF OMITTED] 49487.131

[GRAPHIC] [TIFF OMITTED] 49487.132

[GRAPHIC] [TIFF OMITTED] 49487.133

[GRAPHIC] [TIFF OMITTED] 49487.134

[GRAPHIC] [TIFF OMITTED] 49487.135

[GRAPHIC] [TIFF OMITTED] 49487.136

[GRAPHIC] [TIFF OMITTED] 49487.137

[GRAPHIC] [TIFF OMITTED] 49487.138

[GRAPHIC] [TIFF OMITTED] 49487.139

[GRAPHIC] [TIFF OMITTED] 49487.140

[GRAPHIC] [TIFF OMITTED] 49487.141

[GRAPHIC] [TIFF OMITTED] 49487.142

[GRAPHIC] [TIFF OMITTED] 49487.143

[GRAPHIC] [TIFF OMITTED] 49487.144

[GRAPHIC] [TIFF OMITTED] 49487.145

[GRAPHIC] [TIFF OMITTED] 49487.146

[GRAPHIC] [TIFF OMITTED] 49487.147

[GRAPHIC] [TIFF OMITTED] 49487.148

[GRAPHIC] [TIFF OMITTED] 49487.149

[GRAPHIC] [TIFF OMITTED] 49487.150

[GRAPHIC] [TIFF OMITTED] 49487.151

[GRAPHIC] [TIFF OMITTED] 49487.152

[GRAPHIC] [TIFF OMITTED] 49487.153

[GRAPHIC] [TIFF OMITTED] 49487.154

[GRAPHIC] [TIFF OMITTED] 49487.155

[GRAPHIC] [TIFF OMITTED] 49487.156

[GRAPHIC] [TIFF OMITTED] 49487.157

[GRAPHIC] [TIFF OMITTED] 49487.158

[GRAPHIC] [TIFF OMITTED] 49487.159

[GRAPHIC] [TIFF OMITTED] 49487.160

[GRAPHIC] [TIFF OMITTED] 49487.161

[GRAPHIC] [TIFF OMITTED] 49487.162

[GRAPHIC] [TIFF OMITTED] 49487.163

[GRAPHIC] [TIFF OMITTED] 49487.164

[GRAPHIC] [TIFF OMITTED] 49487.165

[GRAPHIC] [TIFF OMITTED] 49487.166

[GRAPHIC] [TIFF OMITTED] 49487.167

[GRAPHIC] [TIFF OMITTED] 49487.168

[GRAPHIC] [TIFF OMITTED] 49487.169

[GRAPHIC] [TIFF OMITTED] 49487.170

[GRAPHIC] [TIFF OMITTED] 49487.171

[GRAPHIC] [TIFF OMITTED] 49487.172

[GRAPHIC] [TIFF OMITTED] 49487.173

[GRAPHIC] [TIFF OMITTED] 49487.174

[GRAPHIC] [TIFF OMITTED] 49487.175

[GRAPHIC] [TIFF OMITTED] 49487.176

[GRAPHIC] [TIFF OMITTED] 49487.177

[GRAPHIC] [TIFF OMITTED] 49487.178

[GRAPHIC] [TIFF OMITTED] 49487.179

[GRAPHIC] [TIFF OMITTED] 49487.180

[GRAPHIC] [TIFF OMITTED] 49487.181

[GRAPHIC] [TIFF OMITTED] 49487.182

[GRAPHIC] [TIFF OMITTED] 49487.183

[GRAPHIC] [TIFF OMITTED] 49487.184

[GRAPHIC] [TIFF OMITTED] 49487.185

[GRAPHIC] [TIFF OMITTED] 49487.186

[GRAPHIC] [TIFF OMITTED] 49487.187

[GRAPHIC] [TIFF OMITTED] 49487.188

[GRAPHIC] [TIFF OMITTED] 49487.189

[GRAPHIC] [TIFF OMITTED] 49487.190

[GRAPHIC] [TIFF OMITTED] 49487.191

[GRAPHIC] [TIFF OMITTED] 49487.192

[GRAPHIC] [TIFF OMITTED] 49487.193

[GRAPHIC] [TIFF OMITTED] 49487.194

[GRAPHIC] [TIFF OMITTED] 49487.195

[GRAPHIC] [TIFF OMITTED] 49487.196

                                 <all>

</pre></body></html>
